     Department of Homeland Security

     ��������������������������



        American Samoa’s Management of 

    Homeland Security Grant Program Awards for 

          Fiscal Years 2009 Through 2011 





OIG-14-16                             December 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                       DEC 10 2013

MEMORANDUM FOR:	             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    !merican Samoa’s Management of Homeland Security Grant
                             Program Awards for Fiscal Years 2009 Through 2011

Attached for your action is our final report, !merican Samoa’s Management of Homeland
Security Grant Program Awards for Fiscal Years 2009 Through 2011. We incorporated the
formal comments from the Office of Policy, Program Analysis and International Affairs and
the American Samoa Department of Homeland Security in the final report.

The report contains 17 recommendations aimed at improving the overall effectiveness of
!merican Samoa’s management of State Homeland Security Program grants. Your office
concurred with all of the recommendations. Based on information provided in your
response to the draft report, we consider recommendations 2, 5, and 6 closed, and
recommendations 1, 3, 4, and 7 through 17 unresolved and open.

As prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of the
date of this memorandum, please provide our office with a written response that includes
your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov. Until we receive and evaluate your response,
recommendations 1, 3, 4, and 7 through 17 are open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment




 www.oig.dhs.gov                             2                                   OIG-14-16
   November 14, 2013

   Ms. Anne L. Richards
   Assistant Inspector General for Audits
   Office of Inspector General
   U.S. Department of Homeland Security
   245 Murray Drive, S.W. Building 410
   Washington, D.C. 20528

   Dear Ms. Richards:

   Foxx & Company performed an audit of American Samoa’s management of the
   Department of Homeland Security’s State Homeland Security Program grants for Fiscal
   Years 2009 through 2011. The audit was performed in accordance with our Task Order
   No. TPD-FIG-BPA-10-0006, Order No. 0001 dated September 24, 2012. This report
   presents the results of the audit and includes recommendations to help improve
   American Samoa’s management of the audited State Homeland Security Program
   grants.

   Our audit was conducted in accordance with applicable Government Auditing Standards,
   2011 revision. The audit was a performance audit as defined by Chapter 2 of the
   Standards and included a review and report on program activities with a compliance
   element. Although the audit report comments on costs claimed by American Samoa, we
   did not perform a financial audit, the purpose of which would be to render an opinion
   on American Samoa’s financial statements or the funds claimed in the Financial Status
   Reports and Federal Financial Reports submitted to the Department of Homeland
   Security.

   We appreciate the opportunity to have conducted this audit. Should you have any
   questions, or if we can be of any further assistance, please call me at (513) 639-8843.

   Sincerely,

   Foxx & Company



   Martin W. O’Neill
   Partner




www.oig.dhs.gov                                                                         OIG-14-16

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


              American Samoa’s Preparedness System .............................................................. 3 

              Recommendations ............................................................................................... 13 

              Management Comments and Auditors’ Analysis ................................................ 14 


              Management of the SHSP Grant Funds ............................................................... 17 

              Recommendation ................................................................................................. 19 

              Management Comments and Auditors’ Analysis ................................................ 19 


              Training and Exercise Activities ............................................................................ 19 

              Recommendations ............................................................................................... 22 

              Management Comments and Auditors’ Analysis ................................................ 23 


              Property Management and Accountability ......................................................... 25 

              Recommendation ................................................................................................. 27 

              Management Comments and Auditors’ Analysis ................................................ 27 


              Personnel Time Charges ....................................................................................... 28 

              Recommendations ............................................................................................... 29 

              Management Comments and Auditors’ Analysis ................................................ 30 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology .......................................... 32 

              Appendix B:           Management Comments to the Draft Report ............................. 35 

              Appendix C:           Description of the Homeland Security Grant Program ................ 48 

              Appendix D:           American Samoa Department of Homeland Security 

                                    Organization Chart ....................................................................... 49 

              Appendix E:           Threat and Hazard Identification and Risk Assessment ............... 50 

              Appendix F:           Description of the National Preparedness System ...................... 51 





www.oig.dhs.gov                                                                                                                 OIG-14-16

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Appendix G:      American Samoa Homeland Security Advisory Council and
                            Working Groups ........................................................................... 53 

           Appendix H:      FEMA Funding Freeze and Restricted Drawdown History ........... 55 

           Appendix I:      Potential Monetary Benefits ........................................................ 57 

           Appendix J:      Report Distribution ...................................................................... 58 


   Abbreviations
           ASDHS              American Samoa Department of Homeland Security
           CFR                Code of Federal Regulations
           DHS                Department of Homeland Security
           FEMA               Federal Emergency Management Agency
           FY                 fiscal year
           HSAC               Homeland Security Advisory Council
           HSEEP              Homeland Security Exercise and Evaluation Program
           HSGP               Homeland Security Grant Program
           NIMS               National Incident Management System
           OIG                Office of Inspector General
           SHSP               State Homeland Security Program
           SMART              specific, measurable, achievable, results-oriented, and time-
                              limited
           SPR                State Preparedness Report
           State strategy     State Homeland Security Strategy
           TEMCO              Territorial Emergency Management Coordinating Office
           Territory          Territory of American Samoa
           THIRA              Threat and Hazard Identification Risk Assessment




www.oig.dhs.gov                                                                                                   OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ and U.S. Territories’ management of
   State Homeland Security Program and Urban Areas Security Initiative grants. This report
   responds to the reporting requirement for the Territory of American Samoa (Territory).

   The audit objectives were to determine whether the Territory spent State Homeland
   Security Program grant funds effectively and efficiently, and in compliance with
   applicable Federal laws and regulations. We also addressed the extent to which grant
   funds enhanced the Territory’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. The
   Territory was awarded approximately $4.1 million in State Homeland Security Program
   grants during fiscal years 2009 through 2011. Because only a small portion of fiscal years
   2009 through 2011 grant funds had been obligated and expended, we reviewed
   personnel charges against the fiscal year 2008 grant.

   The Territory did not aggressively manage fiscal years 2009 through 2011 State
   Homeland Security Program grant funds, did not adequately identify and assess its risks
   and vulnerabilities, and did not measure its progress in achieving needed capabilities. As
   of January 25, 2013, only $204,000 of the $4,057,280 awarded had been obligated and
   expended. The Territory also did not comply with Federal requirements regarding
   training and exercise activities, property management, and accounting for personnel
   time charges. As a result, the Territory’s preparedness was not in compliance with the
   Federal Emergency Management Agency’s (FEMA) requirements in the areas of
   emergency response equipment, training, and exercises. We questioned costs totaling
   $52,292 that resulted from charging fiscal year 2012 management and administration
   costs against the fiscal year 2008 grant.

   We made 17 recommendations that call for FEMA to initiate improvements, which, if
   implemented, should strengthen grant program management, performance, and
   oversight. FEMA and the Territory concurred with all 17 recommendations. Written
   comments to the draft report are incorporated as appropriate and are included in
   appendix B.




www.oig.dhs.gov                                1                                        OIG-14-16

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States and U.S. Territories, and synchronizing preparedness efforts throughout the
   Nation. Appendix C contains a detailed description of the interrelated grant programs
   that constitute the HSGP.

   HSGP guidance requires the Governor of each State and U.S. Territory to designate a
   State Administrative Agency to apply for and administer grant funding awarded under
   the HSGP. The State Administrative Agency is the only entity eligible to apply for HSGP
   funds. The Governor of American Samoa designated the American Samoa Department
   of Homeland Security (ASDHS) to serve as the State Administrative Agency for the
   Territory. The ASDHS organization is included in appendix D.

   The Territory was awarded $4,154,177 in HSGP funds during fiscal years (FYs) 2009
   through 2011. This included $4,057,280 in State Homeland Security Program (SHSP)
   funds. The additional HSGP funds totaling $97,297 were awarded under the HSGP
   Citizens Corp Program. Appendix A contains details on the audit’s objectives, scope, and
   methodology.

   Results of Audit
           The Territory did not efficiently and effectively implement and manage its SHSP
           grants to achieve needed capabilities. As a result, the Territory could not
           accurately estimate capability requirements, or build, sustain, or plan to deliver
           capabilities.

           The Territory needs to implement improvements in:

                  •   The Territory’s Preparedness System
                  •   Obligating and Expending Funds
                  •   Training and Exercise Activities
                  •   Property Management and Accountability
                  •   Personnel Time Charges


www.oig.dhs.gov                                 2                                        OIG-14-16

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           As of January 25, 2013, the Territory had only obligated and expended $204,000
           of the $4,057,280 awarded. The Territory also did not comply with Federal
           requirements regarding training and exercise activities, property management
           and accountability, and accounting for personnel time charges. As a result, the
           Territory’s preparedness did not meet national preparedness standards in the
           areas of emergency response equipment, training, and exercises. We reviewed
           personnel charges against the FY 2008 grant and questioned costs totaling
           $52,292 that resulted from charging FY 2012 management and administration
           costs against the FY 2008 grant.

           The Territory needs to improve its implementation and management of SHSP
           grants in order to receive the intended benefits of the grant programs. In
           addition, the Territory needs to increase its training and exercise activities to
           better prepare first responder capabilities to prevent, prepare for, protect, and
           respond when called upon. Compliance improvements are also needed in the
           Territory’s property management and personnel time reporting systems.

           American Samoa’s Preparedness System

           ASDHS did not approach preparedness based on the components of the National
           Preparedness System. The National Preparedness System, dated November
           2011, states that implementation of the system will result in integration of the
           following components into an efficient and effective system:1

                  1.   Identifying and assessing risk;
                  2.   Estimating capability requirements;
                  3.   Building and sustaining capabilities;
                  4.   Planning to deliver capabilities;
                  5.   Validating capabilities; and
                  6.   Reviewing and updating

           Instead, the Territory used a fragmented approach in its efforts to enhance
           preparedness capabilities. The Territory’s preparedness system consisted
           primarily of ASDHS taking the actions required to secure grant funding; e.g.,
           periodic review and update of State Homeland Security Strategies (State
           strategies), submission of State Preparedness Reports (SPRs), and submission of


   1
    Appendix F provides a description of the National Preparedness System and the six components of the
   system. These components are integral to each of the five mission areas described in the National
   Preparedness Goal (prevention, protection, mitigation, response, and recovery).

www.oig.dhs.gov                                      3                                             OIG-14-16

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           grant applications.2 The fragmentation resulting from not integrating the six
           National Preparedness System components into a single system has negatively
           impacted the Territory’s efforts to achieve capabilities and improve
           preparedness. As a result, the Territory did not adequately identify and assess
           risks and vulnerabilities, accurately estimate capability requirements, or build,
           sustain, or plan to deliver capabilities.

           Until the Territory designs and implements an integrated preparedness system
           based on the National Preparedness System, lives and infrastructure could be at
           risk because:

                  •	 The risk to the Territory based on threats, vulnerabilities, and
                     consequences will not be fully known.
                  •	 Core capability requirements will remain uncertain.
                  •	 Opportunities to enhance capabilities across the five mission areas of
                     prevention, protection, mitigation, response, and recovery will be lost.
                  •	 Basic emergency response needs will remain unmet.
                  •	 The ability to validate plans and capabilities through exercises will be
                     minimal.
                  •	 Reviews of plans, resources, and capabilities will not provide the means
                     to examine preparedness, determine priorities, direct preparedness
                     actions, adjust goals and objectives, and monitor major programs that
                     impact preparedness.

           Three factors that contributed to the Territory’s inability to integrate the
           National Preparedness System components into an efficient and effective system
           are weaknesses in utilizing governance bodies, demonstrating improvements
           and measurable accomplishments of SHSP funded projects, and preparing and
           prioritizing investment justifications.

           SHSP Governance

           The Territory’s governance over its SHSP was ineffective. ASDHS established
           governance bodies consisting of the American Samoa Homeland Security
           Advisory Council (HSAC) and HSAC working groups. These governance bodies did
           not (1) collaborate on risk and capabilities-based assessments and (2) evaluate
           goals, objectives, and implementation steps in State strategies. Furthermore, the
           governance bodies did not support ongoing reviews and refinement of the

   2
    The State Preparedness Report is a self-assessment of the capabilities required to prevent, protect
   against, mitigate the effects of, respond to, and recover from all threats and hazards.

www.oig.dhs.gov                                        4	                                                 OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Territory’s homeland security program as new lessons were learned, and new
           priorities, challenges, threats, and hazards evolved.

           FEMA grant guidance for FYs 2009 through 2011 re-emphasized the importance
           of creating or utilizing existing governing bodies to act on grant application
           requirements and funding priorities specified in the guidance and to coordinate
           grant resources. According to the guidance, the membership of a governing
           body, such as a State Senior Advisory Committee, must, at a minimum, include
           officials directly responsible for the administration of the FEMA grants. The
           guidance also says that State strategies should reflect an ongoing process of
           review and refinement as new lessons, new priorities, and new challenges,
           threats, and hazards evolve. Governing bodies are essential to ensuring that
           Department of Homeland Security State and Urban Areas Homeland Security
           Strategy Guidance on Aligning Strategies with the National Preparedness Goal,
           July 2005, is followed.

           According to the FYs 2010 and 2011 State strategies, the HSAC was established
           by Executive Order No. 001-2006, to advise ASDHS in all homeland security areas
           including planning, organization, equipment, training, and exercises.3 This council
           was comprised of the heads of American Samoa Government departments and
           agencies, Federal government representatives, and representatives from the
           private sector. The HSAC was established to conduct comprehensive reviews and
           analyses of the current state of preparedness and assess local capabilities to
           detect, prevent, and respond to acts of terrorism and weapons of mass
           destruction; to develop and provide recommendations; and to review and
           approve the State strategy and ASDHS program goals, objectives, and
           implementation plans. See appendix G for HSAC membership.

           While the FYs 2010 and 2011 State strategies say that the HSAC has a major role
           in establishing the State strategy for the Territory, only four HSAC meetings were
           convened between 2007 and January 2013. The one HSAC meeting within the
           scope of the audit (FYs 2009 through FY 2011) was convened for HSAC members
           to meet and interact with FEMA Headquarters and FEMA Region IX staff. We
           found no evidence that the HSAC collaborated on risk and capabilities-based
           assessments; evaluated State strategies as required; or supported ongoing
           reviews and refinement of the Territory’s homeland security program as new


   3
    Executive Order 001-2006, dated January 24, 2006, established the Homeland Security Advisory
   Committee. Executive Order 008-2007, dated July 22, 2007 superseded and rescinded Executive Order
   001-2006 and established the Homeland Security Advisory Council.

www.oig.dhs.gov                                     5                                             OIG-14-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           lessons were learned, and new priorities, challenges, threats, and hazards
           evolved.

           Seventeen HSAC working groups (see appendix G) were established between
           2007 and 2012 to review past State strategies and make necessary revisions as
           required based on the Territory’s needs and in conjunction with the National
           Strategy. Only 6 of the 17 HSAC working groups identified by ASDHS were
           involved in homeland security activities. These six HSAC working groups were
           mostly involved with project management or project specific efforts such as
           developing the Territorial Disaster Assistance Plan and monitoring a land mobile
           radio project. Because the HSAC rarely met, HSAC working groups were not
           called upon for strategic planning. The Strategic Planning Team described in the
           FYs 2010 and 2011 State strategies was established to help guide the strategy
           development process for allocating and distributing grant funding among
           emergency responders in the Territory. However, there also was no evidence
           that the Strategic Planning Team had ever met.

           For the most part, the Territory did not ensure that its Homeland Security
           Program got the attention and resources needed for an effective program
           outcome. Lapses in leadership and accountability occurred because established
           governance bodies rarely met to address homeland security matters or to ensure
           preparedness activities were integrated across disciplines, agencies, and levels of
           government. In addition, ASDHS organizational duties and responsibilities were
           not always clearly defined, and frequent organizational and personnel changes
           occurred. Between 2009 and 2012, 23 ASDHS memoranda were issued adding
           additional or new duties and responsibilities to ASDHS staff. In addition, staff
           positions in the Strategic Plan, Program Monitoring and Evaluation, and State
           Preparedness Report Sections of ASDHS’ Office of Homeland Security were not
           filled, although this organizational component of ASDHS was approved by the
           Territorial Governor in February 2011.

           Each American Samoa department or agency with homeland security
           responsibilities determined its own needs without obtaining a Territory-wide risk
           and capabilities-based view of preparedness. Additionally, because governing
           bodies rarely met, the Territory’s departments and agencies did not actively
           participate in State strategy development and evaluation, State preparedness
           reporting, or prioritization of homeland security projects. The resulting
           impression was that homeland security matters were the sole responsibility of
           ASDHS rather than the American Samoa Government.



www.oig.dhs.gov                                 6                                        OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           FEMA officials confirmed that the absence of leadership and accountability
           regarding program success were the primary reasons why projects in the
           Territory were not being accomplished. FEMA officials also said changes in
           management, priorities, and projects had been problematic. They also said that
           because the Territory is a very small island, political influences played an
           important part in homeland security management decisions.

           A stabilized ASDHS organization with defined roles and responsibilities is one of
           the key elements of accountability for program success and would help mitigate
           the political influences affecting homeland security management decisions.

           SHSP Improvements and Accomplishments

           ASDHS could not demonstrate specific improvements and measurable
           accomplishments of SHSP funded projects because it:

                  •	 Did not establish a baseline of objectives in its State strategy that
                     complied with the Department of Homeland Security State and Urban
                     Area Homeland Security Strategy Guidance on Aligning Strategies with
                     the National Preparedness Goal, dated July 2005, and
                  •	 Did not monitor grant implementation.

           ASDHS had not evaluated the effectiveness of its State strategies or established
           grant performance measures. Reviews and updates of the Territory’s State
           strategies for FYs 2009 through 2011 were ineffective because the strategies did
           not include appropriate goals, objectives, and implementation steps; or did not
           address the Territory’s needs for basic emergency response capabilities.

           According to Department of Homeland Security State and Urban Area Homeland
           Security Strategy Guidance on Aligning Strategies with the National Preparedness
           Goal, July 2005, an objective sets a tangible and measurable target level of
           performance over time against which actual achievement can be compared.
           Therefore, the objectives in State strategies should be specific, measurable,
           achievable, results-oriented, and time-limited (SMART):

                  •	 Specific, detailed, particular, and focused – helping to identify what was
                     to be achieved and accomplished;
                  •	 Measurable – quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;


www.oig.dhs.gov                                    7	                                       OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  •	 Achievable – the objective is not beyond a State, region, jurisdiction, or
                     locality’s ability;
                  •	 Results-oriented – identifies a specific outcome; and
                  •	 Time-limited – a target date exists to identify when the objective will be
                     achieved.

           ASDHS did not always have SMART objectives consistent with Federal
           requirements in its State strategies, as shown in table 1.

           Table 1. American Samoa State Homeland Security Strategies’ Objectives
                               Specific,                                Results-
                                            Measurable
                               detailed,                                oriented
             Fiscal Year                     (output-    Achievable                  Time-limited
                              particular,                              (outcomes
                                             oriented)
                             and focused                              vs. outputs)
                             Yes / No      Yes / No      Yes / No      Yes / No       Yes / No
                2009          18 / 47       29 / 36       28 / 37       17 / 48         0 / 65
             2010/2011        58 / 17       58 / 17       58 / 17       57 / 18        15 / 60
           Source: Foxx & Company analysis

           The Department of Homeland Security State and Urban Area Homeland Security
           Strategy Guidance on Aligning Strategies with the National Preparedness Goal
           also stated that to ensure the success of the strategy, an evaluation plan was
           required to monitor progress, compile key management information, track
           trends, and keep the strategy on track. The State strategies provided an
           evaluation plan which called for quarterly meetings of a territorial assessment
           working group to review strategic goals, objectives, and implementation steps;
           evaluate achievements and identify pending objectives that remain incomplete;
           and revise as needed homeland security objectives in order to meet the goals of
           the Territory. Although ASDHS employed a technical assistance contractor to aid
           in the development of the FY 2010 State strategy, there was no evidence
           that a territorial assessment working group or any other working group or
           committee ever met to assist in revising the strategy or to measure the success
           of the strategy.

           Code of Federal Regulations (CFR) Title 44 §13.40(a), Monitoring and Reporting
           Program Performance, required that the grantee monitor grant-supported
           activities to ensure compliance with applicable Federal requirements and to
           ensure that performance goals were being achieved. However, ASDHS could not
           demonstrate specific improvements and measurable accomplishments of SHSP
           funded projects because it did not monitor grant implementation. As a result,


www.oig.dhs.gov                                    8	                                         OIG-14-16

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


              ASDHS did not have a basis for measuring improvements in its preparedness and
              response capabilities.

              ASDHS officials said that they measured improvements in preparedness every
              time the Emergency Operations Center was activated. Activating the Emergency
              Operations Center may be a means to validate capabilities, but only if a
              measurable target level of performance has been established. ASDHS officials
              also said that progress towards increasing their level of preparedness was
              reported to DHS annually with their submission of the SPR and the Threat and
              Hazard Identification Risk Assessment (THIRA). 4 The FY 2011 SPR did not report
              improvements in capabilities; did not identify risks, vulnerabilities, or needs; did
              not crosswalk to the goals and objectives in the State strategies; and did not
              contain any performance measures.

              Investment Justifications

              ASDHS did not prepare and prioritize Investment Justifications based on risks or
              gaps in capabilities. No risk assessments were completed during FYs 2009
              through 2011. As a result, capability gaps, excesses, and deficiencies were not
              known.

              Guidance on preparing the FY 2011 SPR required States and U.S. Territories to
              identify threats and hazards, identify the capabilities stressed by the possibility
              of those threats and hazards occurring, conduct a self-assessment of current
              capabilities, and identify any gaps in capabilities. Each of these actions is
              necessary in order to prepare and prioritize Investment Justifications that are
              based on risks and gaps in capabilities.

              The 2011 SPR identified threats and hazards for which the Territory was
              preparing and answered basic questions on self-assessed capability limitations.
              However, the 2011 SPR did not address gaps in levels of preparedness associated
              with planning, organization, equipment, training, and exercises; or the steps
              needed to fill the gaps. ASDHS officials reported in its FYs 2009 and 2010 SPRs
              that, due to a freeze of DHS/FEMA funding, limited progress had been made
              toward specific target capabilities.

              FEMA guidance for preparing Investment Justifications (grant applications)
              during FYs 2009 through FY 2011 generally required States and U.S. Territories
              to: (1) describe how terrorism and natural hazards influenced the development
   4
       While requested, ASDHS could not provide us a copy of the FY 2011 THIRA.

www.oig.dhs.gov                                         9                                     OIG-14-16
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              of the investments (projects), (2) identify State strategy goals, objectives, and
              milestones associated with each project; and (3) describe each project including
              funding for each solution area (planning, organization, equipment, training, and
              exercises).

              ASDHS did not adequately describe the spectrum of terrorism and natural hazard
              risks that the Territory faced or explain how this understanding influenced
              development of the grant applications. In its FY 2011 application package, ASDHS
              said that the probability of a terrorist attack had increased due to rising
              turbulence and terrorist activities in the surrounding Asia Pacific Theater.
              However, a mainstream media report with information obtained from open
              sources said in July 2010 that the Territory was one of 15 States and
              U.S. Territories that the Department of Homeland Security and U.S. intelligence
              agencies assessed as having no specific foreign or domestic terrorism threat.5
              In addition, State strategy references to goals, objectives, and milestones
              associated with each project were broad and primarily addressed National
              Priorities that only tied back to the individual projects in a general sense. For
              FY 2010, 5 of the 10 SHSP projects did not identify State strategy references as
              required.

              Individually proposed projects were not prioritized based on risk, and investment
              descriptions were often vague and incomplete. ASDHS officials stated that other
              Territorial departments and agencies were asked to identify projects that
              addressed needs and priorities when grant guidance became available. ASDHS
              also said it did not dictate the needs and priorities of any one agency or
              department but allowed the agencies and departments the opportunity to
              develop their own investment projects based on perceived or identified threats
              and vulnerabilities. ASDHS officials said that project submissions were compared
              to FEMA’s guidance on preparing the grant application in order to select and
              prioritize projects. Two examples of vague and incomplete projects are:

                  •	 ASDHS proposed a FY 2009 project to strengthen chemical, biological,
                     radiological, nuclear, and explosives detection and response capabilities.
                     The proposed project required an investment of $250,000, which
                     consisted of $247,500 for unspecified equipment and $2,500 for training.
                     No funds were identified for planning, organization, or exercises.
                  •	 A proposed FY 2010 project requested $685,494 for ASDHS personnel
                     costs. The project did not describe an actual need for additional staff or


   5
       Top Secret America, A Washington Post Investigation, July 2010.

www.oig.dhs.gov                                         10                          	      OIG-14-16
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  for the payment of personnel costs for existing staff. In addition, the
                  project did not conform to FY 2010 grant guidance regarding
                  organizational activities or allowable management and administration
                  costs.

           According to ASDHS officials, the Territory’s SHSP planning was not an ongoing
           process. Instead of planning in advance of the grant year, the officials said that
           the Territory’s planning began with FEMA’s issuance of Grant Guidance and
           Application Kits for each FY. While departments and agencies submitted needs in
           the form of Investment Justifications for projects, the identified needs were not
           based on formal risk assessments. Project descriptions, funding allocations by
           solution area, and project milestones were not readily apparent. For example,
           the description for a FY 2011 project entitled Multi-Discipline Border Control was
           unclear as to the Territory’s needs, its existing border control capabilities, or its
           capability gaps. Of the $609,576 in project funding requested, ASDHS identified
           $20,000 for planning, $20,000 for organization, $569,576 for unspecified
           equipment, and $0 for training and exercises. While expected outcomes were
           identified by ASDHS, there was no specificity in project documentation to
           indicate how these outcomes would be achieved.

           Projects and requested funding associated with agreed upon capability needs
           and capability gaps were not carried forward from year to year when the need or
           gap continued to exist. New projects were proposed while older projects were
           never started or remained incomplete with needed capabilities unmet.
           According to FEMA officials, advance planning and grant oversight were systemic
           problems with the Territory. While it is not uncommon for preparedness
           priorities to change, changes from year-to-year should be minimal until basic
           emergency response capabilities and equipment are acquired.

           As stated in the FYs 2010 and 2011 State strategies, “The reality for isolated
           territories with weak economies such as American Samoa is that we remain
           deficient in most aspects of basic emergency response services. It is critical that
           recognition of American Samoa’s unique status directs attention to these deficits
           and acknowledges the need to replace antiquated basic emergency response
           equipment and update training in order to benefit from technological advances
           in emergency response, lessons learned, and documented best practices.”
           Accordingly, ASDHS should continue with a static plan from year to year until it
           reaches a basic level of competence for the basic emergency response services in
           which the Territory remains deficient.



www.oig.dhs.gov                                 11                                         OIG-14-16

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           ASDHS officials stated that an initial risk and vulnerability assessment of critical
           infrastructure sites was underway during our fieldwork and was expected to be
           completed in early February 2013. ASDHS officials also said that ultimately a full
           review of approximately 13 critical infrastructural sites would be completed
           although a completion date was not specified. In addition, ASDHS officials said
           that capability gaps, excesses, and deficiencies were not known since this
           information would be determined during the risk and vulnerability assessment
           mentioned above.

           In April 2012, FEMA required States, U.S. Territories, and local governments
           receiving FEMA preparedness grants to complete a THIRA by December 31,
           2012.6 The THIRA provides a comprehensive approach for identifying and
           assessing risks and associated impacts using the core capabilities identified in the
           National Preparedness Goal. In addition to the THIRA, States and U.S. Territories
           receiving FEMA preparedness grants are required to annually submit a SPR.
           FEMA officials state that THIRA results and the SPR will provide a quantitative
           summary of preparedness. However, we did not review the THIRA process
           because it was still under development in FY 2011 and therefore not within the
           scope of our review. See appendix E for more information about the THIRA.

           Conclusion

           To summarize, the Territory’s homeland security program remained fragmented
           and ASDHS’ approach to preparedness was inefficient and ineffective. As a
           result, the Territory’s preparedness remained deficient in basic emergency
           response equipment, training, and exercises. In addition, the Territory risked
           losing SHSP funding due to the expiration of grant fund periods of performance.
           Until the Territory designs and implements an integrated preparedness system,
           lives and infrastructure could be at risk because:

                  •	   Risks to the Territory will not be fully known,
                  •	   Core capability requirements will remain uncertain,
                  •	   Opportunities to enhance capabilities will be lost,
                  •	   Basic emergency response needs will remain unmet,
                  •	   The ability to validate plans and capabilities through exercises will be
                       minimal, and

   6
    According to the FY 2011 HSGP Guidance and Application Kit (May 2011), in order to qualify for FY 2011
   funding, all grantees shall develop and maintain a THIRA. Current State Hazard Identification and Risk
   Assessments developed for the purposes of Pre-Disaster Mitigation or Hazard Mitigation Grant Program
   that have a terrorism component satisfy the FY 2011 SHSP requirement.

www.oig.dhs.gov                                      12                                       	      OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 Reviews of plans, resources, and capabilities may not provide the means
                     to examine preparedness, determine priorities, direct preparedness
                     actions, adjust goals and objectives, and monitor major programs that
                     impact preparedness.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, American Samoa Department of Homeland Security to:

           Recommendation #1:

           Stabilize the ASDHS organization by defining the roles and responsibilities of
           ASDHS staff in relation to the responsibilities of the Department.

           Recommendation #2:

           Design and implement an integrated preparedness system that demonstrates to
           FEMA that the leadership activities of ASDHS align with the priorities and goals of
           the American Samoa Government and address the components of the National
           Preparedness System.

           Recommendation #3:

           Establish a firm requirement for HSAC and working group meetings to be held
           quarterly or more frequently for the purpose of:
               •	 Providing a risk and capabilities-based blueprint for comprehensive,
                   Territory-wide planning for the homeland security efforts;
               •	 Identifying realistic strategic goals, SMART objectives, and
                   implementation steps that provide sufficient information on how goals
                   and objectives would be achieved;
               •	 Monitoring State strategy progress, compiling key management
                   information, tracking trends, and keeping the strategy on track; and
               •	 Mitigating the political influences affecting homeland security 

                   management decisions. 





www.oig.dhs.gov                                  13                               	         OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #4:

           Require that each HSAC and Working Group meeting be fully documented,
           reviewed, and acknowledged by ASDHS officials; and, as appropriate, be
           forwarded to FEMA officials for review and approval.

           Recommendation #5:

           Establish grant performance measures so that grant-supported activities can be
           sufficiently monitored to ensure that performance goals are being achieved.

           Recommendation #6:

           Demonstrate consistency in acquiring needed capabilities or filling capability
           gaps by tracking progress for approved projects from year-to-year, and
           performing needs assessments before planning new projects.

           Management Comments and Auditors’ Analysis

           Recommendation 1. FEMA concurred with the recommendation and will require
           ASDHS to develop a staffing plan that encompasses authorized staff positions
           with approved job descriptions that can support its unique homeland security
           organizational activities.

           ASDHS said that its leadership has introduced a new organizational chart which
           has been reviewed by the Directors of the Department of Human Resources and
           the Office of Planning and Budget and is currently awaiting the required
           signatures. In addition, position descriptions further defining the roles and
           responsibilities of ASDHS personnel in relation to the mission and mandated
           functions of the Department have been submitted. With the submission of the
           position descriptions and organizational chart, ASDHS requested closure of this
           recommendation.

           Auditors’ Analysis. The actions proposed by FEMA and ongoing at ASDHS meet
           the intent of the recommendation. However, until FEMA provides a firm
           timetable for completion, the recommendation will remain unresolved and
           open.

           Recommendation 2. FEMA concurred with the recommendation. FEMA said that
           the integrated preparedness system has its basis in the strategic plan and

www.oig.dhs.gov                                14                                       OIG-14-16

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           planning process, part of which is designed to help the Territory establish
           measurable goals and objectives and systematically measure improvements in
           first responder capabilities and Territory-wide preparedness.

           FEMA described actions taken in 2012 to develop a consistent THIRA
           methodology for determining risks. FEMA said that the THIRA and SPR processes
           are scalable to allow sub-jurisdictions, sub-grantees, and subject matter experts
           to provide input to the State or Territory, and taken together, the THIRA and SPR
           highlight gaps in capability and the progress of grantees in closing those gaps
           over time. FEMA provided copies of the Territory’s FY 2012 THIRA and SPR but
           because of their length, they were not included in appendix B of this report.

           FEMA also said that States and Territories should build and sustain capabilities
           based on the capability needs, shortfalls, requirements, and gaps identified in
           grant applications. FEMA said that Investment Justifications submitted in the
           grant application must specifically identify the core capability or capabilities, the
           priority of the core capability, the capability gaps noted in SPRs that the
           investment intends to address, and the specific outcome(s) that the investment
           will yield.

           FEMA concluded that that use of the THIRA, SPR, and Investment Justifications
           satisfies the intent of this recommendation and it requested that
           recommendation be closed.

           In its response, ASDHS said it is willing to revisit its preparedness system
           processes to ensure that the leadership activities of ASDHS align with the
           priorities and goals of the Territory.

           Auditors’ Analysis. The actions taken by FEMA meet the intent of the
           recommendation. The recommendation is considered resolved and closed.

           Recommendations 3. FEMA concurred with the recommendation and said that it
           would remind ASDHS to comply with its own administrative policies which call
           for the HSAC to conduct risk-based planning for the Territory’s preparedness
           goals and objectives at least quarterly. FEMA said that it will address this with
           the Territory to ensure it has the proper structure in place to support quarterly
           planning meetings. In addition, FEMA said it would follow up with the Territory
           to confirm steps have been taken to document and record meeting discussions
           when they occur and to determine how these meetings influence forward
           planning for the HSGP.

www.oig.dhs.gov                                 15                                         OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           ASDHS said that it will establish firm requirements for the HSAC and working
           group meetings to be held quarterly or more frequently as the need exists.
           ASDHS also said it would consider the bullet points in the recommendation as it
           restructures the HSAC and working groups to improve their functionality as the
           governing bodies for the HSGP.

           Auditors’ Analysis. The actions proposed by FEMA and ongoing at ASDHS meet
           the intent of the recommendation. However, until FEMA provides a firm
           timetable for completion, the recommendation will remain unresolved and
           open.

           Recommendation 4. FEMA concurred with the intent of the recommendation
           and said that the way in which ASDHS should document its HSAC meetings is
           addressed in its response to recommendation 3. ASDHS concurred with the
           recommendation and said that when held, minutes of HSAC and Working Group
           meetings are documented and made available upon request by FEMA officials
           for their information and review.

           Auditors’ Analysis. FEMA’s response meets the intent of this recommendation.
           However, until FEMA provides a firm timetable for completion, the
           recommendation will remain unresolved and open.

           Recommendations 5 and 6. FEMA concurred with the recommendations. FEMA
           said that as discussed in its response to recommendation 2, a system has been
           established to help States, Territories, and Urban Areas establish measurable
           goals and objectives, thus enabling them to systematically measure
           improvements in first responder capabilities and statewide preparedness.
           Processes in this system (1) help ensure consistency in the methodologies used
           for acquiring needed capabilities or filling capability gaps, (2) allow for the
           tracking of progress for approved projects from year-to-year, and (3) allow for
           performing needs assessments before planning new projects.

           ASDHS concurred with recommendation 5 and said it will ensure performance
           measures documented in Investment Justifications and other reports are
           sufficiently monitored with a view toward achieving goals and objectives. ASDHS
           also concurred with recommendation 6 stating that the completion of the
           Territory’s THIRA in December 2013 will aid ASDHS and its stakeholder partners
           in responding collectively and collaboratively to this recommendation.



www.oig.dhs.gov                               16                                      OIG-14-16

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Auditors’ Analysis. As discussed in FEMA’s response to recommendation 2, the
           actions taken by FEMA meet the intent of recommendations 5 and 6, which are
           resolved and closed.

           Management of the SHSP Grant Funds

           ASDHS did not aggressively manage its SHSP grant funds, did not obligate and
           expend grant funds in a timely manner, and did not demonstrate to FEMA that
           the Territory’s projects had been sufficiently planned with clearly defined project
           descriptions, milestones, and funding allocations by solution area. As of
           January 31, 2013, ASDHS had only obligated and expended $102,000 of the
           $1,430,000 in FY 2009 SHSP grant funding; $102,000 of the $1,469,000 in
           FY 2010 SHSP grant funding; and $0 of the $1,157,680 in SHSP grant funding
           awarded for FY 2011. The pace of the Territory’s obligations and funding
           activities could result in the Territory losing SHSP funding due to the expiration
           of grant fund periods of performance. If this occurs, the Territory will lose the
           opportunity to acquire needed capabilities or fill capability gaps to adequately
           prepare for, prevent, respond to, and recover from threats to public safety.

           FEMA Guidance to State Administrative Agencies to Expedite the Expenditure of
           Certain DHS/FEMA Grant Funding, dated February 13, 2012, recognized the
           benefits of Federal investment in State and local preparedness capabilities. The
           Guidance provided a process for reprioritizing and modifying current investment
           projects to ensure that funds were made available for use quickly and efficiently.

           ASDHS officials attributed the delay in obligating and expending grant funds to a
           freeze on HSGP funding imposed on the Territory by FEMA in January 2007,
           resulting from an OIG audit of FYs 2002 through 2004 HSGP awards. 7 ASDHS
           officials said that they looked for ways to use unspent grant funds, but often
           experienced difficulties due to FEMA’s:

                  •   Rigid pre-approval process prior to initiating projects,
                  •   Restrictive periods of performance, and
                  •   Restrictive cash drawdown procedures.

           While FEMA had placed a hold on most of the Territory’s SHSP grant funding, the
           FYs 2009 through 2011 Initial Strategy Implementation Plans submitted by
           ASDHS and approved by FEMA gave the Territory the authority to begin its
   7
    OIG Report Number OIG-07-42, Audit of State Homeland Security Grants Awarded to the American
   Samoa Government, May 2007.

www.oig.dhs.gov                                    17                                              OIG-14-16
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           projects once the project details had been firmly established and approved by
           FEMA. ASDHS did not initiate projects because it failed to work out specific
           project details and obtain FEMA’s approval to begin. Appendix H provides a
           history of FEMA’s funding freeze and restricted cash drawdown procedures.

           We discussed ASDHS’ concerns regarding its inability to initiate projects with
           FEMA officials on February 6, 2013, who said:

                  •	 There was nothing keeping ASDHS from initiating projects if FEMA’s
                     pre-approval procedures were followed. The Territory is different from
                     States and other Territories in that funds classified by FEMA as on hold
                     (frozen) would only be made available for obligation and expenditure
                     when ASDHS assured FEMA that advance project planning had
                     adequately identified project requirements and ASDHS was prepared to
                     initiate and monitor the project.
                  •	 Funding on open grants should be expended prior to opening additional
                     grants. However, additional grant programs could be opened for
                     warranted projects on a case-by-case basis if the Territory identified a
                     requirement for additional grant funding to complete those projects.
                  •	 Until ASDHS demonstrated that it could manage multiple projects with
                     multiple years funding, the administrative hold on funds would remain in
                     place.

           Because of the administrative hold placed on the Territory’s HSGP funds in 2007,
           ASDHS erroneously believed that projects submitted by ASDHS as part of its
           grant application and approved by FEMA could not be initiated until FEMA
           released the grant funds. In the prior audit of HSGP funds, OIG recommended
           that FEMA make greater use of existing authorities, up to and including
           designating the Territorial Office of Homeland Security (now ASDHS) as a "high-
           risk" grantee due to the nature of the findings reported. In lieu of a high risk
           designation, FEMA froze all grant funding in January 2007 pending a full review
           of financial activity related to the grant programs. When outstanding issues in
           the OIG report were adequately addressed in September 2009, the freeze on
           older HSGP grant funds was lifted, but restricted cash drawdown procedures
           were put in place. FEMA required ASDHS to provide supporting documentation,
           and obtain approval from FEMA, in advance of drawing down the grant funds.

           In summary, FEMA continued an administrative hold on FYs 2010 through 2012
           grants but did not prohibited ASDHS from initiating projects if FEMA’s
           pre-approval procedures were followed. With improved leadership and

www.oig.dhs.gov                                  18                               	      OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           accountability, mitigation of political influences, advance project planning, and a
           process to achieve consistency in achieving preparedness capabilities, the
           Territory can acquire needed capabilities or fill capability gaps to adequately
           prepare for, prevent, respond to, and recover from threats to public safety.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, American Samoa Department of Homeland Security to:

           Recommendation #7:

           Seek FEMA’s approval to initiate projects in a timely manner after grant award
           based on documentation that assures FEMA that the projects have been
           sufficiently planned with appropriate defined project descriptions, funding
           allocations by solution area, and project milestones.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendation 7 and said that it will work with ASDHS
           as it implements policies and practices that promote earlier and more timely
           communication with FEMA on allowable project activity under the current
           program hold conditions. ASDHS also concurred with the recommendation and
           said that it does not need to wait for FEMA approval to initiate projects as the
           conditions imposed by FEMA are financial in nature. ASDHS also said that it
           promptly reviews and revises grant awards with the grantee and routinely issues
           grant adjustment notices to reflect the revisions.

           Auditors’ Analysis. The actions proposed by FEMA meet the intent of the
           recommendation. ASDHS correctly pointed out that current program hold
           conditions are financial in nature and projects could be initiated without
           additional FEMA project approval. FEMA will only release SHSP funds when it has
           assurance that projects have been sufficiently planned with appropriate defined
           project descriptions, funding allocations by solution area, and project
           milestones. Therefore, the earlier these activities are accomplished, the earlier
           ASDHS can seek reimbursement for actual project costs. Until FEMA provides a
           firm timetable for completion of its proposed actions, the recommendation
           remains unresolved and open.




www.oig.dhs.gov                                19                                        OIG-14-16

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Training and Exercise Activities 


           ASDHS was not proactive in recognizing the requirements for training and
           exercises. ASDHS did not (1) conduct an annual Training and Exercise Plan
           Workshop and update its Training and Exercise Plan in 2012, and (2) complete a
           cycle of exercise activity during the 2009 through 2011 period. In addition,
           ASDHS did not meet National Incident Management System (NIMS)
           requirements for obtaining the NIMS baseline curriculum courses for those
           personnel involved in emergency management. As a result, there was no
           assurance that ASDHS and the Territory’s first responders were adequately
           trained or had the ability to prepare for, prevent, respond to, and recover from
           threats to public safety.

           According to FYs 2009, 2010, and 2011 HSGP guidance, States and
           U.S. Territories were required to conduct an annual Training and Exercise Plan
           Workshop to identify key priorities and major events over a multi-year time
           frame and to align training and exercises in support of those priorities. A
           multi-year Training and Exercise Plan would be produced from the workshop to
           include the Territory’s training and exercise priorities, associated training and
           exercise capabilities, and a multi-year training and exercise schedule. This plan
           was to be updated annually and the schedule would reflect all exercises that
           were to be conducted.

           Grant guidance also provided that grant recipients must complete a cycle of
           exercise activity during the period of the grant. The guidance stated that all
           exercises would be performance-based and evaluated using Exercise Evaluation
           Guides found in the Homeland Security Exercise and Evaluation Program (HSEEP)
           at the HSEEP website. According to the guidance, an After-Action
           Report/Improvement Plan would be prepared and submitted to FEMA. After-
           Action Reports/Improvement Plans must conform to HSEEP format and should
           capture objective data pertaining to exercise conduct.

           Homeland Security Presidential Directive 5, issued in February 2003, required
           Federal departments and agencies to make adoption of NIMS by State, tribal and
           local governments, and non-government organizations a condition for Federal
           preparedness assistance, through grants, contracts, and other activities. NIMS
           was published in March 2004 and revised in December 2008. According to NIMS
           documentation, everyone involved in emergency management (including
           emergency operation center personnel in support of the field), regardless of



www.oig.dhs.gov                                 20                                      OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           discipline or level of government, should take the NIMS baseline curriculum
           courses (Independent Study-700 and ICS-100).

           FEMA officials stated that FEMA provided assistance to ASDHS in developing and
           implementing the Territory’s initial Training and Exercise Plan Workshop in
           December 2010. The Workshop produced a 2011-2014 multi-year Training and
           Exercise Plan. According to FEMA, a workshop was also held in 2011, but not in
           2012. An ASDHS official stated that the Training and Exercise Plan Workshop was
           not conducted in 2012 because the gubernatorial election that year would result
           in changes occurring in the administration. Therefore, ASDHS decided to wait
           until the following year to conduct the annual workshop. A Training and Exercise
           Plan Workshop was scheduled to be held in November 2013.

           The multi-year Training and Exercise Plan defined capability areas including a
           critical resource logistics and distribution capability. This capability, when
           achieved, accurately tracks and records available key players (stakeholders) and
           material critical resources throughout all incident management phases. The
           Training and Exercise Plan stated that as the program matures, the Territory
           would focus on this capability area. While ASDHS provided us with an After
           Action Report/Improvement Plan Distribution list which listed the key American
           Samoa department and agency directors and contact information, the list did not
           provide areas of expertise and prior exercise experience, nor was there any
           indication that all the stakeholders had been identified.

           According to ASDHS officials, ASDHS had not performed any exercises during the
           periods of performance for the FYs 2009 through 2011 HSGP awards. The
           Territory conducted a district-wide evacuation drill for certain schools in May
           2009 and a tsunami tabletop exercise in May 2010. However, according to an
           ASDHS official, the evacuation drill and tabletop exercise were not official
           exercises because HSEEP requirements were not met. The HSEEP protocol
           required that the individuals conducting the exercise be HSEEP trained or that a
           HSEEP trained evaluator observe the exercise to assure the exercise was
           conducted properly. ASDHS had not trained HSEEP employees because of the
           expense of obtaining the training outside of the Territory.

           According to ASDHS officials, a full scale first responder exercise was planned for
           November 2013. The Territory and FEMA were also planning for a catastrophic
           hurricane tabletop exercise in 2014.

           According to ASDHS officials, about 35 percent of the employees involved in
           emergency management activities had completed the required NIMS baseline
www.oig.dhs.gov                                21                                        OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           curriculum courses. ASDHS officials said that some personnel did not have
           computers and could not access the required online computer-based training
           course. In addition, some employees had difficulty in completing the course.
           ASDHS officials said that ASDHS conducted an in-house training course each year
           to assist those who had difficulty completing the course or did not have
           computer access. The officials also said that, because there has been a high
           turnover in emergency response personnel positions, there was a constant need
           to provide training to new employees.

           While the FEMA-approved spending plans for FYs 2009 through 2011 HSGP funds
           provided budgets for training, no funds had been expended for training
           purposes. According to an ASDHS official, ASDHS had established the Planning,
           Training and Exercise Working Group composed of training coordinators from
           other American Samoa departments and agencies who met quarterly to
           determine Territory-wide training and exercise requirements at all levels. In
           addition, the ASDHS training coordinator stated that twice a year, ASDHS
           contacted the training coordinators from the various American Samoa
           departments and agencies to determine which emergency response personnel
           needed the required NIMS training. FEMA also provided ASDHS with a computer
           disc which included completion records for all participants who have completed
           the required training.

           When annual Training and Exercise Plan Workshops are not held, the Territory
           loses the opportunity to translate State strategy goals into specific training and
           exercise activities. Furthermore, the Territory loses the chance to determine
           areas for improvement and assess training needs that would assure its ability to
           prepare for, prevent, respond to, and recover from threats to public safety. Only
           by holding an annual Training and Exercise Plan Workshop and executing the
           subsequent exercises can the Territory define specific corrective actions that
           must be taken to remedy issues observed during the exercises.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, American Samoa Department of Homeland Security to:

           Recommendation #8:

           Conduct an annual Training and Exercise Plan Workshop, require the Planning,
           Training and Exercise Working Group to determine the Territory’s training and

www.oig.dhs.gov                                22                                       OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           exercise needs, and update the multi-year Training and Exercise Plan each year
           as required.

           Recommendation #9:

           Identify the stakeholders in exercise activities by contact information, areas of
           expertise, and prior exercise experience, and integrate the stakeholders into the
           exercise program.

           Recommendation #10:

           Complete a cycle of exercise activity that includes the stakeholders and
           organizations that would be involved in an actual incident or event.

           Recommendation #11:

           Provide HSEEP training to individuals who have responsibility relevant to
           conducting exercises.

           Recommendation #12:

           Require the Planning, Training and Exercise Working Group to develop and
           implement a plan to identify and train all appropriate American Samoa
           Government employees on the NIMS baseline curriculum courses.

           Management Comments and Auditors’ Analysis

           Recommendations 8 through 10. FEMA concurred with the recommendations
           and will require ASDHS to establish policies and procedures for developing a
           multi-year training and exercise program plan which addresses the actions
           identified in the three recommendations. In the implementation of this plan,
           FEMA will require ASDHS to complete a cycle of exercise activity that includes
           the stakeholders and organizations that would be involved in an actual incident
           or event.

           For recommendation 8, ASDHS said that the Multi-year Training and Exercise
           Plan 2011-2014, developed in December 2010, is updated constantly and
           activities in the plan are held in accordance with the schedule. ASDHS concurred
           with recommendations 9 and 10 and noted that the only modified full scale
           exercise funded by FEMA and monitored in accordance with HSEEP requirements
           was conducted in 2005 - 2006. ASDHS said the cycle of exercise activity is
www.oig.dhs.gov                                23                                       OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           included in the Multi-year Training and Exercise Plan 2011 – 2014 and that a
           Continuity of Operations Workshop and full scale exercise conducted by the
           American Samoa Department of Health occurred after the audit in early
           September 2013. ASDHS also said that depending on an incident or event, a list
           of stakeholders and organizations is a part of the required After Action Report.

           Auditors’ Analysis. The actions proposed by FEMA meet the intent of
           recommendations 8 through 10. ASDHS’ response to recommendation 8 and
           concurrence with recommendations 9 and 10 are noted. However, until FEMA
           provides a firm timetable for completion of its proposed actions,
           recommendations 8 through 10 remain unresolved and open.

           Recommendation 11. FEMA concurred with the recommendation. FEMA will
           require Territory government employees with responsibilities for conducting
           exercises to ensure that Training and Exercise Coordinators are NIMS qualified.
           ASDHS also concurred with the recommendation and said the ASDHS Training
           Coordinator, in coordination with the respective stakeholder first response and
           support agency training points of contact, will include the delivery of HSEEP
           training to individuals who have responsibilities for conducting exercises. ASDHS
           also said it will pursue obtaining HSEEP certification for ASDHS training
           personnel.

           Auditors’ Analysis. The actions proposed by FEMA and ASDHS meet the intent of
           the recommendation. However, until FEMA provides a firm timetable for
           completion, the recommendation remains unresolved and open.

           Recommendation 12. FEMA concurred with the recommendation and stated
           that it will require the Planning, Training, and Exercise Working Group to develop
           and implement a plan to identify and train all appropriate Territorial government
           employees on NIMS baseline curriculum courses. ASDHS also concurred with the
           recommendation and said that it will work collectively with the Planning,
           Training, and Exercise Working Group and the NIMS Working Group to achieve a
           95 percent compliance level by March 2014.

           Auditors’ Analysis. The actions proposed by FEMA and ASDHS meet the intent of
           the recommendation. However, until FEMA provides a firm timetable for
           completion, the recommendation remains unresolved and open.




www.oig.dhs.gov                                24                                       OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Property Management and Accountability 


           ASDHS’ property management system did not include specific procedures for
           adequate property management and accountability; did not include all items of
           equipment that had been received; and did not always include location, use and
           condition of the property, and disposition data. In addition, ASDHS did not
           always follow up on missing items found during annual inventories until the
           following year’s inventory. As a result, ASDHS did not comply with the Federal
           property management and accountability requirements.

           CFR Title 44 §13.3, Definitions, defines equipment as tangible, nonexpendable
           personal property having a useful life of more than 1 year and an acquisition cost
           of $5,000 or more per unit. A grantee may use its own definition of equipment
           provided that such definition would at least include all equipment defined
           above.

           CFR Title 44 §13.32(d), Management requirements, establishes procedures for
           managing equipment (including replacement equipment), whether acquired in
           whole or in part with grant funds, and includes the following minimum
           requirements:

                  •	 Maintain property records that include a description of the property, a
                     serial number or other identification number, the source of property,
                     who holds title, the acquisition date, the cost of the property, percentage
                     of Federal participation in the cost of the property, the location, use and
                     condition of the property, and any ultimate disposition data including the
                     date of disposal and sale price of the property.
                  •	 Conduct a physical inventory of the property and reconcile the results
                     with the property records at least once every 2 years.
                  •	 Establish and maintain a control system to ensure adequate safeguards
                     to prevent loss, damage, or theft of the property. Any loss, damage, or
                     theft shall be investigated.
                  •	 Perform adequate maintenance procedures to keep the property in good
                     condition.

           CFR Title 44 §13.20(b)(3), Internal control, states effective control and
           accountability must be maintained for all grant and subgrant cash, real and
           personal property, and other assets. Grantees and subgrantees must adequately
           safeguard all such property and must assure that it is used solely for authorized
           purposes. Sensitive equipment that is portable, such as lap-top computers and

www.oig.dhs.gov                                   25                                 	     OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           handheld radios, should be safeguarded even though the cost of the equipment
           might be less than the $5,000.

           Our review of ASDHS’ property management system noted the following
           instances of noncompliance with Federal regulations:

                  •	 ASDHS did not consolidate all asset (equipment) information in the
                     Territory’s property management system. This finding was reported by
                     FEMA in its monitoring report dated August 23, 2010. Our follow-up on
                     this finding confirmed that this problem had not been corrected. For
                     example:

                     o	 Radios to be used as part of the Territory’s land mobile radio system
                        were received, but were not included in the property management
                        system. ASDHS officials said they did not intend to record these radios
                        in the property records until the radio system was fully constructed
                        and operational.

                     o	 Although 47 of the 48 warning towers within the tsunami siren
                        warning system had been installed, the location of the 47 towers was
                        not included in the Territory’s property management records.
                        Separate documentation was maintained that provided the location.

                  •	 ASDHS’ property management system did not always include:

                     o	 All of the minimum requirements for managing equipment. For
                        example, the holder of title or custodian, location of the equipment,
                        and ultimate disposition data were not always identified.

                     o	 A clear statement of the operational status or use of the equipment.
                        For example, the disposition column on the inventory list might show
                        “keep” for a particular item without an explanation of its actual
                        condition or how it was being used.

                  •	 Although ASDHS performed an inventory once a year, it did not follow up
                     on missing items until the following year’s inventory unless the items
                     were considered expensive, such as vehicles. For example, the April 2012
                     inventory found that 10 laptop or desktop computers were missing. The
                     ASDHS Logistics Administrator provided this information to other ASDHS


www.oig.dhs.gov                                  26                                	      OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                     officials, but investigations were not initiated to determine the
                     disposition of the computers.

           ASDHS officials said that the time required to fully comply with Federal
           regulations had not been available. As a result, the previously reported property
           management conditions had not been fully resolved. Because ASDHS had only a
           brief summary of the Territory’s system rather than detailed operating
           procedures to ensure compliance with Federal requirements, ASDHS’ property
           management system did not include specific procedures for adequate property
           management and accountability. Without these controls, the risk of equipment
           not being included in the system in a timely manner, or items being lost,
           damaged, or stolen was high.

           Recommendation:

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, American Samoa Department of Homeland Security to:

           Recommendation #13:

           Establish procedures to ensure that all Federal property management
           requirements are fully implemented, including:

                  •	 The consolidation of all property management information into a single
                     system;
                  •	 The identification of the holder of title or custodian, location of the
                     equipment, and ultimate disposition data;
                  •	 A clear statement of the operational status or use of the equipment;
                  •	 Controls to mitigate the loss, damage, or theft of equipment; and
                  •	 Timely investigations of any lost, damaged, or stolen equipment.

           Management Comments and Auditors’ Analysis

           FEMA concurred with recommendation 13 and will require ASDHS to develop a
           property management system that meets the requirements of CFR Title 44
           §13.32. ASDHS also concurred with the recommendation and said it would
           incorporate the recommended bullets points in updated inventory policies and
           procedures.




www.oig.dhs.gov                                   27                                 	   OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Auditors’ Analysis. The actions planned by FEMA and ASDHS meet the intent of
           the recommendation. However, until FEMA provides a firm timetable for
           completion, the recommendation remains unresolved and open.

           Personnel Time Charges

           ASDHS did not appropriately account for personnel activity costs for the
           FYs 2008 through 2011 grant awards. Personnel costs were charged to the oldest
           grant that had available funds rather than to the grant for which the activity was
           performed. For example, ASDHS’ financial report for FY 2012 management and
           administration activities showed that $52,292 was charged to the FY 2008 grant.
           In addition, personnel time charges were not supported by activity reports or
           time sheets that identified the grant that personnel had worked on, as required
           by regulations. As a result, ASDHS could not support the accuracy of what was
           charged to the grants in their appropriate grant year. Therefore, the $52,292
           claimed on the FY 2008 award which represented effort in 2012 is considered a
           questioned cost.

           CFR Title 2 Part 225, Cost Principles for State, Local, and Indian Tribal
           Governments, requires that when employees work on multiple activities or cost
           objectives, a distribution of their salaries or wages is supported by personnel
           activity reports or equivalent documentation. Personnel activity reports must
           reflect an after-the-fact distribution of the actual activity, must account for the
           total activity for each employee, must be prepared at least monthly, and must be
           signed by the employee. Budget estimates or other distribution percentages
           determined before the services are performed do not qualify as support for
           charges to Federal awards. Substitute systems for allocating salaries and wages
           may be used in place of activity reports. These systems are subject to approval if
           required by the cognizant Federal agency.

           ASDHS did not have standard operating procedures to ensure that personnel
           activity costs were claimed in accordance with Federal requirements. ASDHS’
           Assistant Finance Administrator said that an employee’s direct time was
           allocated to the various grants based on which grants had funds available. The
           Assistant Finance Administrator stated that a spending plan was prepared that
           identified the grant against which each employee’s time was to be charged. The
           spending plan was then given to the ASDHS Payroll Clerk who coded the
           timecards for each employee according to the plan. The Payroll Clerk continued
           to charge the oldest grant for personnel activity costs until the personnel funds
           for that grant were no longer available.

www.oig.dhs.gov                                28                                        OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           ASDHS required each employee to submit a weekly activity report for the time
           spent during the week. Although these activity reports did not provide the hours
           of work performed by individual grant year, financial records provided by ASDHS
           showed that personnel costs were charged to prior year grants. Because so little
           of FYs 2009 through 2011 grant funds had been obligated and expended by
           ASDHS at the time of our audit, we reviewed personnel charges to the FY 2008
           grant and questioned costs totaling $52,292 that resulted from charging FY 2012
           management administration costs to the FY 2008 grant.

           ASDHS’ practice of charging prior year grants for activities not related to those
           grants and not completing personnel activity reports with the information
           needed to accurately distribute costs was not in compliance with Federal
           requirements. The coding of timecards by the payroll clerk for effort not actually
           worked on those projects was also a violation of CFR Title 2, Part 225. This
           practice resulted in inflated costs for the prior year grants and an
           understatement of the costs for the fiscal year grant that received the benefit of
           the activity performed.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, American Samoa Department of Homeland Security to:

           Recommendation #14:

           Establish and implement standard operating procedures to ensure compliance
           with Federal requirements concerning the use of grant funds for personnel
           activity costs.

           Recommendation #15:

           Ensure that employees prepare activity reports, or develop a substitute system
           that can identify the grant against which employees’ hours should be charged.

           Recommendation #16:

           Determine the amount of personnel costs, including the $52,292 in costs
           associated with FY 2012 management and administration activities, which were
           inappropriately charged to the FYs 2008 through 2011 grants, and adjust the
           financial records to reflect the appropriate costs by grant year.


www.oig.dhs.gov                                29                                       OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           We also recommend that the Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #17:

           Disallow all claimed personnel costs for management and administration
           activities that were not in compliance with Federal requirements.

           Management Comments and Auditors’ Analysis

           Recommendation 14. FEMA concurred with the recommendation and said that
           it would work with ASDHS to develop and implement policies and procedures
           that ensure personnel activity costs comply with grant program requirements
           and with CFR Title 44. ASDHS also concurred with the recommendation and said
           it would ensure compliance by adopting and utilizing templates and reporting
           formats and procedures to document and track time and attendance of all
           personnel activity costs regardless of funding sources.

           Auditors’ Analysis. The actions planned by FEMA and ASDHS meet the intent of
           the recommendation. However, until FEMA provides a firm timetable for
           completion, the recommendation remains unresolved and open.

           Recommendation 15. FEMA concurred with the recommendation and said that
           it would work with the Territory to develop and implement policies and
           procedures that ensure that grant program funds only pay salaries for personnel
           who completed work related to the program. ASDHS also concurred with the
           recommendation and said that as a matter of policy, all ASDHS personnel already
           submit activity reports. ASDHS said that it would follow through with tasks
           discussed in its response to recommendation 14 regarding the preparation of
           personnel activity reports.

           Auditors’ Analysis. The actions planned by FEMA and ASDHS meet the intent of
           the recommendation. However, until FEMA provides a firm timetable for
           completion, the recommendation remains unresolved and open.

           Recommendations 16 and 17. FEMA concurred with both recommendations and
           said that it will require ASDHS to determine the amount of personnel costs that
           were inappropriately charged to FY 2008 - 2011 grants. Where applicable, FEMA
           will require ASDHS to adjust its financial records to reflect the appropriate costs



www.oig.dhs.gov                                30                                        OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           by grant year, and for those costs determined as unallowable, FEMA will institute
           its normal debt collection procedures.

           ASDHS concurred with recommendation 16 but said that personnel costs from
           2012 were charged to the FY 2008 HSGP because the FY 2008 HSGP was the only
           award open to ASDHS at the time. ASDHS said that the costs questioned in the
           finding were subsequently reversed or backed out of FYs 2008 through 2011 and
           charged under the appropriate award. ASDHS said that it will request that FEMA
           permit allowable management and administration costs to be charged to the
           remaining HSGP awards.

           ASDHS concurred with recommendation 17 and said that if the Assistant
           Administrator, Grant Programs Directorate concurs with the recommendation to
           disallow the claimed personnel costs, ASDHS will comply accordingly.

           Auditors’ Analysis. The actions planned by FEMA meet the intent of
           recommendations 16 and 17. However, until FEMA provides a firm timetable for
           completion, the recommendations remain unresolved and open.




www.oig.dhs.gov                               31                                       OIG-14-16

                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security Office of Inspector General was established by
   the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
   General Act of 1978. This is one of a series of audit, inspection, and special reports
   prepared as part of our oversight responsibilities to promote economy, efficiency, and
   effectiveness within the Department.

   This report provides the results of our work to determine whether the Territory spent
   SHSP grant funds (1) effectively and efficiently, and (2) in compliance with applicable
   Federal laws and regulations. We also addressed the extent to which funds enhanced
   the Territory’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its interrelated grant programs, described in appendix C, fund a range of
   preparedness activities, including planning, organization, equipment purchase, training,
   exercises, and management and administration costs. The HSGP awards to the Territory
   for FYs 2009 through 2011 only included SHSP and Citizen Corps Program funds. The
   scope of the audit included the SHSP funding shown below:

   Table 2. American Samoa Homeland Security Grant Program Awards FYs 2009 - 2011
                              Homeland Security Grant Program
                                   FYs 2009 through 2011

             Funded Activity              FY 2009      FY 2010       FY 2011        Total

    State Homeland Security Program    $1,430,000     $1,469,600   $1,157,680   $4,057,280
    Citizen Corps Program                   38,284       32,793       26,220        97,297
    Grand Total                        $1,468,284     $1,502,393   $1,183,900   $4,154,577
   Source: Federal Emergency Management Agency

   In addition, because so little of FYs 2009 through 2011 grant funds had been obligated
   and expended by ASDHS at the time of our audit, we also reviewed personnel charges to
   the FY 2008 grant.

   We reviewed the plans developed by the Territory to improve preparedness and respond
   to all types of hazards, the goals set within those plans, the measurement of progress
   toward the goals, and the assessments of performance improvement that result from
   this activity.

www.oig.dhs.gov                                  32                                      OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   In accordance with the audit guide provided by the DHS OIG, Foxx & Company auditors
   met with FEMA officials and conducted reviews and interviews at FEMA Headquarters
   and FEMA Region IX at the beginning of the audit and, as needed, during the audit. The
   FEMA officials provided important background information and key documentation
   concerning the Territory’s management and expenditure of the SHSP grants.

   We conducted audit work at the State Administrative Agency where we: (1) interviewed
   responsible American Samoa Department of Homeland Security and Territorial
   Emergency Management Coordinating Office officials, (2) reviewed documentation
   supporting Territory management of the awarded grant funds (including expenditures
   for equipment, training, and exercises), and (3) physically inspected some of the
   equipment procured with the grant funds. In addition, we met with representatives of
   the American Samoa Department of the Treasury, Department of Public Safety, and the
   Office of Procurement. The Territory does not award funds to subgrantees. Accordingly,
   the audit did not include visits to subgrantee locations.

   At all locations visited during the audit, the audit team conducted interviews with key
   officials directly involved in the management and administration of the Territory’s
   Homeland Security Grant Program. The team reviewed and analyzed data related to
   grant management and associated management processes identified by the team and
   discussed with American Samoa officials at the beginning of the audit. These key
   management processes included:

       •   Threat, capability, and needs assessment
       •   Grant application preparation and submission
       •   Grant expenditure and reporting
       •   Grant monitoring

   We conducted this performance audit between January and June 2013, pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 2 of the
   Standards, and included a review and report of program activities with a compliance
   element. Foxx & Company was not engaged to and did not perform a financial

www.oig.dhs.gov                               33                                       OIG-14-16

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   statement audit, the objective of which would be to express an opinion on specified
   elements, accounts, or items. Accordingly, Foxx & Company was neither required to
   review, nor express an opinion on, the costs claimed for the grant programs included in
   the scope of the audit. Had Foxx & Company been required to perform additional
   procedures, or conducted an audit of the financial statements in accordance with
   generally accepted auditing standards, other matters might have come to their
   attention that would have been reported. This report relates only to the programs
   specified and does not extend to any financial statements of the Territory.

   While the audit was being performed and the report prepared under contract, the audit
   results are being reported by the DHS Office of Inspector General to appropriate Federal
   Emergency Management Agency and Territory of American Samoa officials.




www.oig.dhs.gov                              34                                       OIG-14-16

                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report




www.oig.dhs.gov                  35                    OIG-14-16

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              FEMA Response to Recommendations 2: Coneur. The integrated preparedness system has its
              basis in the strategic plan and planning process. As part of this plan and process, OIG has
              recommended that FEMA help states, territories and urban areas establish measurable goals and
              objectives that will enable them to systematically measure improvements in first responder
              capabilities and statewide preparedness. FEMA has established and implemented a system to do
              exactly that, as described below.

              Measuring Grant Effectiveness
              As part of the National Preparedness System, FEMA has developed and is implementing
              perfonnance assessments that measure progress toward achieving the Goal. FEMA's strategy is
              to base assessments on the principles that the Nation needs to understand existing risks, use those
              risks to dctennine required capabilities, assess current capability levels against those
              re<}uirements, and track its progress in closing identified capability gaps.

              In 2012, FEMA released a consistent methodology for detennining risks in the Comprehensive
              Preparedness Guide 201: Threat and Hazard Identification and Risk Assessment (THIRA) Guide
              (CPG-201). CPG-201 details a five-step process jurisdictions can use to achieve desired
              outcomes and capability targets for each of the core capabilities. This approach allows a
              jurisdiction to establish its own capability targets based on the risks it faces.

              On December 31, 2012, states, territories, and major urban areas receiving Homeland Security
              Grant Program (HSGP) funds were required to submit their THIRAs to FEMA. Once each
              jurisdiction has dctennined capability targets through the THIRA process, it estimates its current
              capability levels against those targets. Also in 20 12, states and territories were required to
              submit State Preparedness Reports (SPRs) to FEMA. The THIRA and SPR processes are
              scalable to allow sub-jurisdictions, sub-grantees and subject matter experts to provide input to
              the state or territory. Taken together, the THIRA results and the SPR identify capability needs
              and gaps. The THIRA and SPR results highlight gaps in capability and the progress of grantees
              in closing those gaps over time. FEMA reports the results ofthe capability assessments annually
              in the National Preparedness Report (NPR).

              Sustaining, Building and Delivering Capabilities
              Having estimated capability requirements, the next component of the National Preparedness
              System is to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Grantees address documented capability requirements and gaps in their grant
              applications. In the investment justifications (IJ) submitted in the grant application, grantees
              must specifically identify the core capability or capabilities, the priority of tile core capability as
              well as the capability gaps noted in their SPR that investment intends to address. In addition, the
              grantee must identify the specific outcome(s) that the investment will yield. FEM:A verifies
              completion of the investmentlproject through its programmatic monitoring and spending on the
              investment through the Biannual Strategy Implementation Report (BSIR), also a tool used in the
              monitoring process. Since the period of perfonnance for the Homeland Security Grant Program
              is two years, a time limit is set for completion of the project once it is funded.




                                                                 2




www.oig.dhs.gov                                                36                                                       OIG-14-16

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
              that Vlil.l enable States and Territories to systematically measure improvements in first responder
              capabilities and statewide preparedness by requiring states to liSe a set oftools including the
              THIRA, SPR, and Investment Justifications (IJs). Strategy updates are encouraged but not
              required as the THIRA, SPR and JJ methodology provide the goals and assessment of progress
              against those goals.

              Finally, CPG 201: Threat and Ha23rd Identification and Risk Assessment Guide Supplement 1:
              Toolkit provides all the required templates to complete the THIRA process including information
              and documentation used to develop and compile threat and hazard information. As the THIRA
              will be an annual iterative process, subsequent iterations will build on the documents from
              previous years.

              American Samoa has submitted their FY 2012 THIRA (attaclunent 2A) and SPR (attachment
              28).1n accordance with the FY 2013 Homeland Security Grant Program Funding Opportunity
              Announcement, Oregon has submitted investment justifications based on their THIRA and
              SPR." See attached THIRA and SPR submitted by the Territory.

              FEMA addressed the recommendation for assessment and reporting systems by requiring States
              and Territories to use the THIRA, SPR, and Us as the basis for statewide assessment and
              reporting. The methodology and tools for THIRA and SPR are scalable and available to local
              jurisdictions and sub-grantees.

              FEMA believes that use of the THIR.!\, SPR and IJ satisfies the intent of this recommendation
              and requests that recommendation be closed.

              OIG Recommendation 3: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate establish a firm requirement for HSAC and Working Group meetings to be
              held quarterly or more frequently for the purpose of:
                     • Providing a risk and capabilities-based blueprint for comprehensive, Territory-wide
                         planning for the homeland security efforts;
                     • Identifying realistic strategic goals, SMART objectives, and implementation steps
                         that provide sufficient information on how goals and objectives would be achieved;
                     • Monitoring State strategy progress, compiling key management information, tracking
                         trends, and keeping the strategy on track; and,
                     • Mitigating the politicnl influences affecting homeland security management
                         decisions.

              FEMA Response to Recommendations 3: Concur. FEMA will remind ASDHS that they must
              comply with their own administrative policies to ensure that the ASDHS Advisory Committee
              meets at least every three months; e.g., quarterly, to conduct risk-based planning to meet their
              own preparedness goals and SMART objectives as outlined in their plans. FEMA will address
              this with the Territory to ensure they have the proper structure in place to support quarterly
              planning meetings.




                                                               3




www.oig.dhs.gov                                               37                                                    OIG-14-16

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA also will follow up with American Samoa to confirm these steps have been properly
              instituted with the requisite capability they need to document and record meeting discussions
              when they occur each quarter, and how these meetings influence forward planning for HSGP.
              FEMA will confirm with American Samoa that these actions have been implemented before the
              final OIG report is published.

              OIG Reeommendation 4: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate, require the Director, American Samoa Homeland Security to require that
              each HSAC and Working Group meeting be fully documented, reviewed, and acknowledged by
              ASDHS officials; and, as appropriate, be forwarded to FEMA officials for review and approval.

              FEMA Response to Recommendations 4: Concur. FEMA agrees with the intent of this
              recommendation. FEMA believes that the steps outlined in FEMA Response to Recommendation
              #3, will address this recommendation (#4), and will provide remedy for the way in which
              American Samoa docwnents their quarterly planning meetings.

              OIG Recommendation 5: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate, require the Director, American Samoa Homeland Security to establish
              grant performance measures so that grant-supported activities can be sufficiently monitored to
              ensure that performance goals are being achieved.

              FEMA Response to Recommendations 5: Concur. (See consolidated response beww for
              recommendations 5-6)

              OIG Recommendation 6: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate direct that ASDHS demonstrate consistency in acquiring needed
              capabilities or filling capability gaps by tracking progress for approved projects from year-to-
              year, and performing needs assessments before planning new projects.

              FEMA Consolidated Response to Recommendations 5 and 6: Concur. The OIG has
              recommended that FEMA help states, territories and urban areas establish measurable goals and
              objectives that will enable them to systematically measure improvements in first responder
              capabilities and statewide preparedness. FEMA has established and implemented a system to do
              exactly that, as described above, in our response to recommendation 2. Inherent in this system
              are processes that will effectively achieve consistency in the methodologies used for acquiring
              needed capabilities or filling capability gaps. These processes include components for tracking
              progress for approved projects from year-to-year, and for performing needs assessments before
              planning new projects.

              OIG Recommendation 7: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directomte direct ASDHS to seek FEMA's approval to initiate projects in a timely
              manner after grant award based on documentation that assures FEMA that the projects have been
              sufficiently planned with appropriate defined project descriptions, funding allocations by
              solution area, and project milestones.




                                                               4




www.oig.dhs.gov                                               38                                                 OIG-14-16

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              FEMA Response to Recommendation 7: Concur. Under normal circumstances, HSGP
              grantees are not required to request prior approval from FEMA to begin work on projects that are
              described in their investment justifications unless such approval would be required by 44 C.F.R.
              § 13 .30. However as noted in the draft report, American Samoa is currently under the program
              hold condition for HSGP. In order to comply with the terms set by this condition, ASDHS must
              gain approval from FEMA prior to commencing work and drawing down funds on a project.

              In order for the grantee to draw dmvn funds, and commence projects more expeditiously, FEMA
              will work with the ASDHS nn implementing policies and practices that will promote earlier and
              more timely communication with FEMA to enhanced thc grantee's understanding of allowable
              project activity under the current program hold conditions.

              OIG Recommendation 8: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate direct ASDHS to conduct an annual Training and Exercise Plan Workshop,
              require the Planning, Training and Exercise Working Group to determine the Territory's training
              and exercise needs, and update the multi-year Training and Exercise Plan each year as required.

              FEMA Response to Recommendation 8: Concur. (See consolidated response below for
              recommendations 8-10)

              OIG Recommendation 9: We re<::ommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require ASDHS to identify the stakeholders in exercise activities by
              contact information, areas of expertise, and prior exercise experience, and integrate the
              stakeholders into the exercise program.

              FEMA Respoase to Recommendation 9: Concur. (See consolidated response below for
              recommendations 8-10)

              OIG Recommendation 10: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require ASDHS to complete a cycle of exercise activity that includes the
              stakeholders and organizations that would be invnlved in an actual incident or event.

              FEMA Consolidated Response to Recommendations 8-10: Concur. FEMA will require
              ASDHS to develop the policies and procedures for the development of a multi-year program plan
              for the conduct of planning, training, and exercise workshops and events. As part of the plan
              development process, the Planning, Training, and Exercise Working Group will identify
              stakeholder requirements in determining the Territory's planning, training and exercise needs,
              and that these needs be reflected in the multi-year plan.

              Additionally, FEMA will require that the plan contain provisions for an annual update using this
              process and identify the stakeholders in exercise activities by contact information, areas of
              expertise, and prior exercise experience. In the implementation of this plan, FEMA will require
              ASDHS to complete a cycle of exercise activity that includes tbe stakeholders and organizations
              that would be involved in an actual incident or event.




                                                              5




www.oig.dhs.gov                                             39                                                   OIG-14-16

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Re(ommcndation 11: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require ASDHS to provide HSEEP training to individuals who have
              responsibility relevant to conducting exercises.

              FEM.<\ Response to Recommendation 11: Concur. FEMA will require that AS government
              employees with responsibilities relevant to conducting exercises to ensure that Training and
              Exercise Coonlinators are National Tncident Management System (NIMS) qualified.

              OIG Recommendation 12: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the Planning, Training and Exercise Working Group to develop
              and implement a plan to identify and train all appropriate American Samoa Government
              employees on the NIMS baseline curriculum courses.

              FEMA Response to Recommendation 12: Concur. FEMA will require the Planning, Training
              and Exercise Working Group to develop and implement a plan to identify and train all
              appropriate American Samoa Govenunent employees on the NIMS baseline curriculum courses.

              OIG Re(ommendation 13: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate establish procedures to ensure that all Federal property management
              requirements arc fully implemented, including:

                     •   The consolidation of all property management information into a single system;
                     •   The identification of the holder of title or custodian, location of the equipment, and
                         ultimate disposition data;
                     •   A clear statement. of the operational status or use of the equipment;
                     •   Controls to mitigate the loss, dan1age, or theft of equipment; and
                     •   Timely investigations of any lost, damaged, or stolen equipment.

              FEMA Respoase to Recommendation 13: Concur. FEMA will require the ASDHS to
              develop a property management system that meets the requirements of 44 C.F.R. § 13 .32 to
              account for all grant-related purchases of equipment and teclmology ASDHS procures.

              OIG Recommendation 14: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate establish and implement standanl operating procedures to ensure
              compliance with Federal requirements concerning the use of grant funds for personnel activity
              costs.

              FEMA Response to Recommendation 14: Concur. FEMA will work with the ASDHS to
              develop and implement policies and procedures that will ensure personnel activity costs are in
              compliance with the grant program compliance requirements and with 44 CFR.

              OIG Recommendation 15: We recommend that the FEMA Assistant Administrator, Grant
              Progrants Directorate require ASDHS ensure that employees prepare activity reports, or develop
              a substitute system that can identify the grant against which employees' hours should be charged.




                                                               6




www.oig.dhs.gov                                               40                                                  OIG-14-16

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA Response to Recommendation 15: Coacur. FEMA will work with American Samoa
              to develop and implement policies and procedures that will ensure that grant program funds only
              pay salaries for personnel who completed work related the program.

              OIG Recommendation 16: Require ASDHS detennine the amount of personnel costs,
              including the $52,292 in costs associated with FY 2012 management and administration
              activities, which were inappropriately charged to the FYs 2008 through 2011 grants, and adjust
              the financial records to reflect the appropriate costs by grant year.

              FEMA Response to Recommendation 16: Concur. (See consolidated response below for
              recommendations 16-17)

              OIG Recommendation 17: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate disallow all claimed persounel costs for management and administration
              activities that were not in compliance with Federal requirements.

              FEMA Consolidated Response to Recommendations 16-17: Concur. Through
              implementation of its process for identifying and collecting unallowable costs, FEMA will
              require the ASDHS to determine the amount of personnel costs, including the $52,292 in costs
              associated with FY 2012 management and administration actiYities that were inappropriately
              charged to FY 2008 - 2011 grants, where applicable, adjust their financial reoords to reflect the
              appropriate costs by grant year. For those costs detennined as unallowable, FEMA will institute
              its normal debt collection procedures to recover any unallowable costs from ASDHS.

              Thank you again for the opportunity to comment on OIG-12-122-AUD-FEMA Draft Report:
              "American Samoa's Management ofHomeland Security Grant Program Awards for Fiscal Years
              2009 through 2011" and for the work that you and your team have done to better inform us
              throughout this audit so that we may enhance the program's overall effectiveness. We look
              forward to your final report for this audit. Please direct any questions regarding this response to
              Gary McKeon, FEMA's Chief Audit Liaison, at 202-646-1308.




                                                               7




www.oig.dhs.gov                                              41                                                     OIG-14-16

                                            OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security




                                           DEPARTMENT OF HOMELAND SECURITY
                                                            OTICIOE-SPICIN-INTERPOL
                                                                       TEMCO
                                                                   Vrtal Statislics
                                                            Office of Homeland Security
              lion. Lolo M. Mo~ga                                                                                    luruooolua T. Sovuoa
                        li-                      AMERICAN SAMOA GOVERNMENT                                                      o .......
             Hon. Lemanu P. Mauga
                                                                                                                                --+-
                                                                                                                      JaanLR 0 . Brown
                        l.L!f-                                  November 12, 2013
                                                                                                                        'DrpwiJ IZlrtrnM



                  Mr. Martin O'Neill, CPA
                  Partner
                  Foxx & Company, CPAs
                  700 Goodall Complex
                  324 West Ninth Street
                  Cincinnati, OH 4S202-S715

                  Dear Mr. O'Neill:

                  In response to your letter of August 20, 2013, submitted in the attached worksheets Is our formal
                  response to the 17 recommendations identified in the audit performed by Foxx & Company of American
                  Samoa's Management of Homeland Security Grant Program (HSGP) awards for Fiscal Years 2009
                  through 2011. Also included are attachments to four of the recommendations in support of our
                  responses to these particular issues.

                  Consistent with our documented responses, we, at the American Samoa Department of Homeland
                  Security (ASOHS) as the State Administrative Agency (SAA) for the majority of USOHS/FEMA grants
                  administered in the Territory of American Samoa concur with all of the mentioned 17
                  recommendations. Moreover, the format by which the attachment was compiled for purposes of the
                  entire audit report is acceptable to ASOHS.

                  Thank you for the opportunity to work with you and your colleagues in completing this audit. It is our
                  hope that the findings and the corrective action plans as required of most audits will contribute to
                  further improve and strengthen our grants management system and processes.

                  Sincerely,




           ~~     Director

                  Attachments

                  xc:         Honorable Governor Lolo Matalasi Moliga
                              Jerome lerome, Administrator, Office of Grants Oversight and Accountability



              <P.O. 0<>.( 4567                                      11'6oru: {684) 6JJ-2827         'Uit6siU.S:   U'IVU   .aJtflis.org
              II'"'JDII'"'JD, )fmmun StJmDd 96799                   tftqj: {684) 633-2979/5111




www.oig.dhs.gov                                                       42                                                                    OIG-14-16

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


    American Samoa Department of Homeland Security Response to OIG DRAFT REPORT:
     ''American Samoa’s Management of Homeland Security Grant Program Awards for
                           Fiscal Years 2009 Through 2011"

   Note: On October 18, 2013, ASDHS provided its responses to the recommendations in
   17 corrective action plan worksheets. Updates/revisions to these responses were made
   on November 11, 2013. The worksheet responses were copied verbatim into the table
   below. The attachments referred to in ASDHS’ responses are not included herein due to
   their length.

   Table 3. ASDHS Management Responses to the Draft Report
    No.         Recommendation                             ASDHS Response
      1   Stabilize the ASDHS organization by       American Samoa Department of Homeland Security (ASDHS)
          defining the roles and responsibilities   leadership has started this process with the introduction of
          of ASDHS staff in relation to the         a new organizational chart, copy attached, which was
          responsibilities of the Department.       reviewed jointly with the Directors of the Department of
                                                    Human Resources and Planning and Budget. The required
                                                    signatures are pending as of this submission. In addition to
                                                    the revised organizational chart are position descriptions of
                                                    personnel which further define their roles and
                                                    responsibilities as identified thereon and in accordance with
                                                    the mission statement and mandated functions of the
                                                    Department. With the submission of the mentioned position
                                                    descriptions and completed organizational chart, ASDHS
                                                    requests closure of this recommendation.
      2   Design and implement an integrated        ASDHS, while continuing to implement its USDHS/FEMA
          preparedness system that                  grant program under preapproved and restricted drawdown
          demonstrates to FEMA that the             conditions is committed to demonstrating a willingness to
          leadership activities of ASDHS align      revisit its processes to ensure the leadership activities align
          with the priorities and goals of the      with the priorities and goals of the American Samoa
          American Samoa Government and             Government relative to the components of the National
          address the components of the             Preparedness System.
          National Preparedness System.
      3   Establish a firm requirement for HSAC     Under the new leadership and government, additional
          and Working Group meetings to be          human resources and time, ASDHS will establish firm
          held quarterly or more frequently for     requirements for the HSAC and its Working Group meetings
          the purpose of:                           to be held quarterly or more frequently as the need may
             • Providing a risk and capabilities-   require. In moving forward, the HSAC held two meetings
          based blueprint for comprehensive,        (January 17, 2013 and February 20, 2013) to discuss updates
          Territory-wide planning for the           to the Territorial Disaster Assistance Plan (TDAP). Copies of
          homeland security efforts;                attendance sheets and meeting minutes are attached to
             • Identifying realistic strategic      document these meetings. A schedule of HSAC meetings will
          goals, SMART objectives, and              be inserted in the ASDHS calendar of events for FY 2014 and
          implementation steps that provide         forwarded to FEMA Region IX for their information. HSAC
          sufficient information on how goals       Working Groups such as the Territorial Emergency
          and objectives would be achieved;         Communication Committee (TECC) and the Early Alert


www.oig.dhs.gov                                         43                                                 OIG-14-16

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


    No.            Recommendation                                        ASDHS Response
             • Monitoring State strategy            System (EAS) Committee also hold meetings frequently
          progress, compiling key management        depending on projects in progress. The four bullet points
          information, tracking trends, and         outlined in the recommendation shall be taken into
          keeping the strategy on track; and,       consideration in the restructuring of the HSAC and its
             • Mitigating the political influences  Working Groups for purposes of improving their respective
          affecting homeland security               roles and functionality as the governing bodies for these
          management decisions.                     federal grant programs.
      4   Require that each HSAC and Working        ASDHS concurs with the recommendation and submits that
          Group meeting be fully documented,        the issue is not new to the Department as it was and still is
          reviewed, and acknowledged by             the practice of the management and staff to ensure minutes
          ASDHS officials; and, as appropriate,     of HSAC and Working Group meetings are documented and
          be forwarded to FEMA officials for        made available upon request by FEMA officials for their
          review and approval.                      information and review. As such, attendance sheets and
                                                    meeting minutes of the two HSAC meetings mentioned in
                                                    recommendation #3 make up part of this audit report
                                                    response. Due to time constraints, attendance sheets and
                                                    meeting minutes from the TECC and EAS Committees held
                                                    this calendar year will be submitted immediately following
                                                    this submission.
      5   Establish grant performance measures ASDHS concurs with the recommendation and will ensure
          so that grant-supported activities can that established grant performance measures as
          be sufficiently monitored to ensure       documented in investment justifications are sufficiently
          that performance goals are being          monitored with a view toward achieving goals and
          achieved.                                 objectives. ASDHS personnel assigned as project lead points
                                                    of contact have developed a template as a tool for this
                                                    purpose to assist in tracking grant supported activities for
                                                    new and historical grant awards.
      6   Demonstrate consistency in acquiring ASDHS concurs with the recommendation. The completion
          needed capabilities or filling capability of the Territorial THIRA/SPR in December 2013 will aid
          gaps by tracking progress for             ASDHS personnel and stakeholder partners in a collective
          approved projects from year-to-year, and collaborative response to the requirements of this
          and performing needs assessments          recommendation. In support of this effort, ASDHS
          before planning new projects.             emergency management personnel and core stakeholder
                                                    partners representing government and non-government
                                                    organizations continue to hold THIRA/SPR weekly meetings
                                                    in addition to planned workshops with FEMA Region IX’s
                                                    Hawaii Pacific Area Office (PAO).
      7   Seek FEMA's approval to initiate          ASDHS concurs with the recommendation and further
          projects in a timely manner after grant agrees with the notion that ASDHS does not need to wait for
          award based on documentation that         FEMA approval to initiate projects as the conditions
          assures FEMA that the projects have       imposed are financial in nature. Consequently, ASDHS
          been sufficiently planned with            management staff routinely conducts prompt reviews and
          appropriate defined project               revisions of existing historical grant awards with the grantor
          descriptions, funding allocations by      which result through the issuance of approved Grant
          solution area, and project milestones. Adjustment Notices (GAN) with appropriate date of
                                                    approval and related requirements. ASDHS further requests
                                                    closure of this recommendation.


www.oig.dhs.gov                                         44                                                OIG-14-16

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


    No.            Recommendation                                       ASDHS Response
      8   Conduct an annual Training and           ASDHS has developed on December 7-8, 2010 a Multi-year
          Exercise Plan Workshop, require the      Training and Exercise Plan 2011-2014 which is treated as a
          Planning Training and Exercise           living document. It is updated constantly and related
          Working Group to determine the           activities relevant to the Plan are held in accordance with
          Territory's training and exercise        the schedule therein such as the Continuity of Operations
          needs, and update the multi-year         Workshop held on September 3-4 with FEMA Region IX
          Training and Exercise Plan each year     Headquarters and Pacific Area Office. Additionally, a THIRA
          as required.                             technical assistance workshop was provided by Hawaii PAO
                                                   while the American Samoa Department of Health conducted
                                                   a Full Schedule Exercise in which ASDHS and first
                                                   responder/support agencies as well as other Federal and
                                                   military partners participated. An updated Training and
                                                   Exercise Schedule is available upon request in addition to
                                                   requesting closure of this recommendation.
      9   Identify the stakeholders in exercise    ASDHS concurs with the recommendation and submits that
          activities by contact information,       the only modified FSE funded under USDHS/FEMA grants
          areas of expertise, and prior exercise   and monitored in accordance with HSEEP requirements was
          experience, and integrate the            held in 2005/2006. However, the COOP Workshop and FSE
          stakeholders into the exercise           conducted by the ASG Department of Health occurred in
          program.                                 early September 2013 after the audit. An after action report
                                                   from the aforementioned DOH exercise and others held in
                                                   the following weeks thereafter will be made available upon
                                                   request with the appropriate ASG agency/agencies.
     10 Complete a cycle of exercise activity      ASDHS concurs with the recommendation and submits that
        that includes the stakeholders and         the cycle of exercise activity is included in the Multi-year
        organizations that would be involved       Training and Exercise Plan 2011 - 2014. Depending on the
        in an actual incident or event.            event or incident, the list of stakeholders and organizations
                                                   that would be involved make up part of the required After
                                                   Action Report.
     11 Provide HSEEP training to individuals      ASDHS concurs with the recommendation. The ASDHS
        who have responsibility relevant to        Training Coordinator in coordination with the respective
        conducting exercises.                      stakeholder first response/support agency training points of
                                                   contact will include the delivery of HSEEP training to
                                                   individuals who have responsibility relevant to conducting
                                                   exercises. It is also important to note that although currently
                                                   ASDHS training personnel are not HSEEP certified, ASDHS
                                                   management will pursue this Federal requirement in the
                                                   immediate future.
     12 Require the Planning, Training and         ASDHS concurs with the recommendation and will work
        Exercise Working Group to develop          collectively with the Planning, Training and Exercise and the
        and implement a plan to identify and       NIMS Working Groups in the implementation of the
        train all appropriate American Samoa       recommended actions. Suffice it to say, ASDHS staff is
        employees on the NIMS baseline             continuing with NIMS baseline curriculum courses while the
        curriculum courses.                        Training Coordinator is also continuing efforts to assist ASG
                                                   employees with the same to ensure 95% NIMS compliant at
                                                   all levels by March 2014.



www.oig.dhs.gov                                        45                                                 OIG-14-16

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


    No.            Recommendation                                        ASDHS Response
     13 Establish procedures to ensure that all     ASDHS concurs with the recommendation and submits that
        Federal property management                 its current inventory system and procedure will incorporate
        requirements are fully implemented,         the recommended five bullet points listed if not already
        including:                                  completed. An updated copy of ASDHS’ inventory
            1. The consolidation of all property    management policy and procedure will be submitted to
        management information into a single        FEMA following this submission.
        system;
            2. The identification of the holder
        of title or custodian, location of the
        equipment, and ultimate disposition
        data;
            3. A clear statement of the
        operational status or use of the
        equipment;
            4. Controls to mitigate the loss,
        damage, or theft of equipment; and
            5. Timely investigations of any lost,
        damaged, or stolen equipment.
     14 Establish and implement standard            ASDHS concurs with the recommendation and will ensure
        operating procedures to ensure              compliance by adopting and utilizing templates and
        compliance with Federal requirements        reporting formats/procedures to document and track time
        concerning the use of grant funds for       and attendance of all personnel activity costs regardless of
        personnel activity costs.                   funding sources. The FEMA/BJA sponsored Grants
                                                    Management Technical Assistance (GMTA) Workshop
                                                    delivered to the ASG workforce from October 30th to
                                                    November 8th, 2013 provided new insights on ASG’s ability
                                                    inclusive of ASDHS to better manage, track, implement and
                                                    expend its grants programs in accordance with applicable
                                                    Federal requirements and guidelines. One-on-one sessions
                                                    with trainers Lisa Nine Gordini, a Senior Staff Associate with
                                                    the National Criminal Justice Association (NCJA) and Farrah
                                                    Gosford, a Senior Emergency Planner for Innovative
                                                    Emergency Management (IEM) with over ten years of
                                                    planning experience with the State of Florida and around
                                                    the nation provided an excellent forum for ASDHS
                                                    management personnel to tweak existing methods of
                                                    tracking project status with ASG Procurement and address
                                                    issues of concern surrounding the bidding process, vendor
                                                    contracts relevant to debarment and suspension provisions,
                                                    performance periods and other procurement related topics.
                                                    The two subject matter experts delivered lectures and
                                                    hands-on exercises on basic and advance grants
                                                    management principles and practices as outlined in the
                                                    attached workshop agenda which make up part of our audit
                                                    responses. Strong emphasis was also placed upon the
                                                    importance of information sharing with ASG Departments of
                                                    Procurement, Treasury, Budget and Planning and Homeland


www.oig.dhs.gov                                         46                                                OIG-14-16

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    No.            Recommendation                                     ASDHS Response
                                                Security. Close working relationships with the newly
                                                established ASG Office of Grants Oversight and
                                                Accountability within the Office of the Governor will also
                                                provide the catalyst for better coordination and serve as the
                                                impetus in ASG’s overall efforts toward the improvement of
                                                its grants management systems and processes.
     15 Ensure that employees prepare           ASDHS concurs with the recommendation and submits that
        activity reports, or develop a          it is already a matter of policy that all ASDHS personnel are
        substitute system that can identify the required to submit activity reports. In lieu of a substitute
        grant against which employees' hours system, ASDHS management staff in addition will follow
        should be charged.                      through with tasks discussed in recommendation #14 in the
                                                preparation of personnel activity reports.
     16 Determine the amount of personnel       ASDHS concurs with the recommendation but submits that
        costs, including the $52,292 in costs   personnel costs from 2012 were charged against HSGP FY
        associated with FY 2012 management 2008 M&A due to the fact this was the only award opened
        and administration activities, which    to ASDHS at the time. Nevertheless, the questioned
        were inappropriately charged to the     personnel costs have been reversed or backed out of FYs
        FYs 2008 through 2011 grants, and       2008 through 2011 and charged under the appropriate
        adjust the financial records to reflect award. However, ASDHS requests with FEMA that approval
        the appropriate costs by grant year.    is rendered whereby ASDHS is allowed to cost share M&A
                                                allowable expenditures among the remaining HSGP awards.
     17 The Assistant Administrator, Grant      ASDHS concurs with the recommendation in part primarily
        Programs Directorate disallow all       to maintain a sense of consistency as illustrated in our
        claimed personnel costs for             response to Recommendation #16. Should the Assistant
        management and administration           Administrator of Grant Programs Directorate concur with
        activities that were not in compliance the recommendation to disallow all claimed personnel costs
        with Federal requirements.              for management and administration activities not in
                                                compliance with Federal requirements, ASDHS will comply
                                                accordingly in this regard.




www.oig.dhs.gov                                      47                                              OIG-14-16

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response
   •	 Citizen Corps
   •	 Operation Stonegarden (beginning in FY 2010)




www.oig.dhs.gov                               48                                	      OIG-14-16

                   OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix D
   American Samoa Department of Homeland Security
   Organization Chart




www.oig.dhs.gov                   49                    OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix E
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The THIRA
   provides a comprehensive approach for identifying and assessing risks and associated
   impacts, using the core capabilities identified in the National Preparedness Goal and
   employing the following five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how affects the community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify
           means to deliver target level of capability).

   THIRA submission is required of all 56 States and Territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be an annual
   performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, States and Territories receiving FEMA preparedness grants are
   required to annually submit a State Preparedness Report. FEMA officials state that
   THIRA results and the State Preparedness Report will provide a quantitative summary of
   preparedness, document current capabilities and potential shortfalls, and set priorities
   for addressing shortfalls. FEMA officials also state that the State Preparedness Report
   results will be used by the States to identify funding requirements and set priorities for
   subgrantee project applications. The grant application (investment justification) must
   demonstrate how proposed projects address gaps and deficiencies in delivering one or
   more core capabilities outlined in the National Preparedness Goal, and as FEMA officials
   state, address capability gaps reported in the State Preparedness Report.

   FEMA officials said that the FY 2013 Homeland Security Grant Program funding
   announcement will require applicants to map proposed investments to specific core
   capabilities and capability gaps identified in the State Preparedness Reports, linking
   investments to actions that build and sustain capabilities aligned with the National
   Preparedness Goal. We have not had the opportunity to audit this process or the
   outcomes for the Territory.

www.oig.dhs.gov                                50                                 	     OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix F
   Description of the National Preparedness System
   The National Preparedness Goal is the cornerstone for implementing Presidential Policy
   Directive-8. Identified within Presidential Policy Directive-8 are the Nation’s core
   capabilities across five mission areas: Prevention, Protection, Mitigation, Response, and
   Recovery. The National Preparedness System is the instrument the Nation will employ
   to build, sustain, and deliver those core capabilities in order to achieve the goal of a
   secure and resilient Nation. The guidance, programs, processes, and systems that
   support each component of the National Preparedness System enable a collaborative,
   whole community approach to national preparedness that engages individuals, families,
   communities, private and nonprofit sectors, faith-based organizations, and all levels of
   government.

   The components of the National Preparedness System, depicted in figure 1 and
   described in greater detail below, provide a consistent and reliable approach to support
   decision making, resource allocation, and measure progress toward these outcomes.
   The maturation and use of the NIMS will aid in ensuring a unified approach across all
   mission areas as the National Preparedness System is implemented.

   Figure 1. National Preparedness System Components
                                                     Identifying and Assessing Risk.
                                                     Developing and maintaining an
                                                     understanding of the variety of risks
                                                     faced by communities and the Nation,
                                                     and how this information can be used
                                                     to build and sustain preparedness, are
                                                     essential components of the National
                                                     Preparedness System. Risk assessments
                                                     collect information regarding the
                                                     threats and hazards, including the
                                                     projected consequences or impacts.

                                                     Estimating Capability Requirements.
                                                     Each community, organization, and
        Fi   1 Mi i A       C        t f th
                                                     level of government must consider
                                                     single threats or hazards as well as the
   full range of risks they may face in order to understand capability requirements. Using
   the results from a risk assessment, the required types and levels of capability can be
   estimated. This estimation process begins with developing a set of planning factors

www.oig.dhs.gov                                51                                        OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   which help inform decisions about the capability level required and the resources
   needed to achieve it. The process of comparing current and required capability levels
   will identify gaps and shortfalls the community may choose to address.

   Building and Sustaining Capabilities. After completing the estimation process, existing
   and needed capabilities can be analyzed and gaps identified. These gaps can be
   prioritized based on a combination of the desired outcomes, risk assessments, and the
   potential effects of not addressing the gaps. Working together, planners, government
   officials, and elected leaders can develop strategies to allocate resources effectively, as
   well as leverage available assistance to reduce risk. These strategies consider both how
   to sustain current levels of capability and address gaps in order to achieve the National
   Preparedness Goal. However, not all capabilities can be addressed in a given funding
   cycle; officials must prioritize the capabilities to most effectively ensure security and
   resilience while understanding the effects of not addressing identified gaps. As
   capabilities are built, training and education are used to develop and strengthen the
   specific knowledge, skills, and abilities required to meet each capability’s target.

   Planning to Deliver Capabilities. Using an integrated approach to planning, risks can be
   systemically managed by effectively using capabilities to prevent, protect, mitigate,
   respond to, and recover from any threat or hazard. This integration comes from
   implementing a National Planning System that promotes a consistent planning process
   and a unified coordinating structure to deliver the capabilities and establish the critical
   links that span the five mission areas. This integration will help ensure planning accounts
   for relationships and dependencies among the core capabilities both within and across
   mission areas. An integrated approach to planning also helps ensure that plans are
   synchronized and ensures that the whole community participates and understands its
   roles and the desired outcomes across all mission areas.

   Validating Capabilities. Measuring progress toward achieving the National Preparedness
   Goal will provide the means to decide how and where to allocate scarce resources and
   prioritize preparedness. This can be done through exercises, remedial action
   management programs, and assessments. Exercises are conducted to test and validate
   plans and capabilities. An effective and comprehensive exercise program that includes
   active collaboration with the whole community is essential to the success of the
   National Preparedness System.

   Reviewing and Updating. On a recurring basis, capabilities, resources, and plans should
   be reviewed to determine if they remain relevant or need to be updated. This review
   should be based on a current risk assessment and utilize information gathered during
   the validation process.

www.oig.dhs.gov                                 52                                        OIG-14-16

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix G
   American Samoa Homeland Security Advisory Council and
   Working Groups
                          Homeland Security Advisory Council

   1.	 Homeland Security Advisor/Director, American Samoa Department of Homeland
       Security
   2.	 Director, Department of Port Administration
   3.	 Commissioner, Department of Public Safety
   4.	 Director, Office of Marine and Wildlife Resources
   5.	 Director, Department of Health
   6.	 Director, Criminal Justice Programs
   7.	 Director, Territorial Emergency Management Coordinating Office (TEMCO)
   8.	 Chief Executive Officer, American Samoa Medical Authority
   9.	 Attorney General, Department of Legal Affairs
   10. Treasurer
   11. Director, American Samoa Environmental Protection Agency
   12. Director, Department of Agriculture
   13. Manager, Office of Petroleum Management
   14. United States Coast Guard (observer)
   15. General Manager, Pacific Energy
   16. General Manager, Star Kist Samoa
   17. Chief Executive Officer, American Samoa Power Authority
   18. Director, Department of Public Works
   19. Tri-Marine Company
   20. Transportation Security Agency (observer)
   21. American Red Cross – American Samoa
   22. American Samoa Voluntary Organizations Active in Disaster
   23. National Park Service
   24. Pualele Foundation
   25. United States Army Reserves
   26. Governor’s Authorized Representative




www.oig.dhs.gov                           53                             	     OIG-14-16

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                     Homeland Security Advisory Council Working Groups
       (established by ASDHS Memorandum 29-2007, June 2007, unless otherwise noted)

   1.	 American Samoa Critical Infrastructure Protection Program Working Group - Chaired
       by ASDHS/TEMCO
   2.	 Law Enforcement Terrorism Prevention Program Working Group - Chaired by
       Federal Bureau of Investigation
   3.	 Pandemic Planning Working Group - Chaired by Department of Health
   4.	 Strategic Planning Working Group - Chaired by ASDHS
   5.	 Fusion Center Working Group - Chaired by Federal Bureau of Investigation
   6.	 All Hazard Mitigation Working Group - Chaired by ASDHS
   7.	 Special Needs Working Group - Chaired by ASDHS/TEMCO
   8.	 Planning, Training and Exercise Working Group - Chaired by ASDHS8
   9.	 Tactical Interoperable Communications Plan Working Group - Chaired by American
       Samoa Telecommunications Authority
   10. All HazMat and WMD Working Group - Chaired by Department of Public Safety/Fire-
       Police
   11. National Incident Management System Working Group - Chaired by ASDHS/TEMCO
   12. Emergency Alert System Working Group - Chaired by American Samoa
       Telecommunications Authority
   13. Emergency Operations Center Working Group - Chaired by ASDHS/TEMCO
   14. Territorial Disaster Assistance Plan or Territorial Emergency Operations Plan
       Working Group - Chaired by ASDHS/TEMCO
   15. Citizens Corps Working Group - Chaired by ASDHS/TEMCO
   16. Cyber Security Working Group – Presiding at initial meeting – TEMCO (established by
       ASDHS Memorandum 9-2011, September 2011)
   17. Mass Care Working Group – Chaired by Department of Education (established by
       ASDHS Memorandum 2-2012, March 2012)




   8
    The Education and Training Working Group, established by ASDHS Memorandum 29-2007, June 2007,
   appears to be similar to the Planning, Training and Exercise Working Group, which was established by
   ASDHS Memorandum 6- 2011 in June 2011. The latter working group is not listed above.

www.oig.dhs.gov                                      54                                      	      OIG-14-16

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix H
   FEMA Funding Freeze and Restricted Drawdown History
        Date(s)                                            Event
   March 2005 to       DHS OIG performed audit fieldwork of FYs 2002-2004 HSGP grants
   August 2006         awarded to the Territory.
   December 2006       DHS OIG held an audit exit conference with Office of Domestic
                       Preparedness.
   January 12, 2007    As a result of the ongoing DHS OIG audit of the HSGP, all DHS grant
                       program funds were frozen pending a full review of financial activity in
                       the Territory related to these programs.
   February 6, 2007    The Governor established the ASDHS.
   March 16, 2007      Twenty-nine TEMCO and Territorial Office of Homeland Security
                       personnel funded by US DHS grants were laid off by the ASDHS Director
                       due to the funding freeze.
   May 2, 2007         The DHS OIG issued its audit which contained three findings:
                       (1) developing and implementing strategic plans; (2) ensuring
                       expenditures comply with grant guidelines ($1.7 Million of $2.3 Million in
                       expenditures examined was questioned); and (3) addressing problematic
                       management practices and controls.
   December 18, 2008   FEMA funds remained frozen. FEMA Region IX informed the Governor
                       that additional audit findings needed to be addressed in order to release
                       grant funds to the Territory. FEMA officials said that once outstanding
                       issues identified in the OIG audit report were adequately addressed, the
                       Territory would be placed on restricted cash drawdown status.
   January 5, 2009     ASDHS was formally institutionalized/created by the passage of a
                       Territorial Public Law.
   July 6, 2009        FEMA informed the Governor that once outstanding issues identified in
                       the OIG audit report were adequately addressed, the Territory would be
                       placed on restricted cash drawdown status for five preparedness grant
                       programs including the FY 2005 HSGP. The release of grant funds under
                       the restricted cash draw status would be limited to the five grant awards
                       to enable FEMA to further evaluate the internal controls and
                       accountability guidelines ASDHS has established and how well these
                       guidelines are followed.




www.oig.dhs.gov                                55                                           OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



        Date(s)                                              Event
   September 1, 2009    The funding freeze for the five grant programs was lifted and restricted
                        drawdown procedures were put in place. FEMA officials said that the
                        restricted drawdown procedure would be reevaluated after 6 months to
                        determine if additional preparedness grant program could be placed on
                        restricted drawdown or if the restriction could be lifted.
   May 5, 2011          DHS OIG reviewed FEMA’s March 2011 Corrective Action Plan and
                        indicated that five open recommendations were considered resolved and
                        closed.
   February 17, 2012    FEMA Grant Programs Directorate removed all special terms and
                        conditions on FYs 2008 and 2009 HSGP funds based on reclassification of
                        open recommendations to closed.
   February 20, 2012    FEMA Grant Programs Directorate informed the Governor that all Special
                        Conditions and Administrative Holds for FYs 2007 through 2009 HSGP
                        awards had been removed.
   May 29, 2012         FEMA Region IX confirmed that FYs 2008 and 2009 HSGP funds had been
                        released; but special conditions and the administrative hold had been
                        reinstated. The special conditions and administrative hold required that
                        prior to the release of funds, the Territory submit supporting expenditure
                        and invoice documentation to FEMA for review.
   October 31, 2012 &   ASDHS submitted spending plans to FEMA identifying the planned use of
   November 26, 2012    FYs 2009 through 2011 HSGP funds, including the acquisition of a building
                        to headquarter ASDHS. ASDHS officials said the plans were submitted in
                        part due to challenging periods of performance associated with FEMA’s
                        decision to reinstate the restricted drawdown status imposed on its grant
                        funds once again.
   December 6, 2012     FEMA Grant Programs Directorate recommended that the Administrator
                        approve the purchase of a building to consolidate Emergency
                        Management and Homeland Security operations currently dispersed
                        across the Island.
   January 24, 2013     The FEMA Administrator approved ASDHS’ purchase of a building using
                        FYs 2009 through 2011 HSGP funds. FEMA made no mention of the
                        remainder of the spending plan.
   January 25, 2013     FEMA Region IX indicated that FYs 2008 and 2009 HSGP awards were
                        “open” and FYs 2010, 2011, and 2012 HSGP awards were “on hold.”
                        Region IX officials explained that “frozen” and “on hold” are synonymous.
                        Region IX officials indicated that the restricted draw down status became
                        applicable to (1) the FYs 2005 through 2007 HSGP in September 2009,
                        2010, and 2011, respectively and (2) to the FYs 2008 and 2009 HSGP in
                        March 2012.




www.oig.dhs.gov                                 56                                          OIG-14-16

                             OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix I
   Potential Monetary Benefits
                              Classification of Monetary Benefits
                                                    Questioned
                                        Funds To                    Questioned
                              Rec.                     Costs –
             Finding                    Be Put to                    Costs –     Total
                               No.                  Unsupported
                                       Better Use                     Other
                                                        Costs

    Personnel Time Charges
                               16             $0        $52,292            $0    $52,292


    Total                                     $0        $52,292            $0    $52,292




www.oig.dhs.gov                               57                                     OIG-14-16

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix J
   Report Distribution
   Department of Homeland Security

   Acting Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  58                        OIG-14-16

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
